<html>
<title> - [H.A.S.C. No. 114-96] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2017 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FOURTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






 
                         [H.A.S.C. No. 114-96]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2017

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

                     U.S. STRATEGIC FORCES POSTURE

                               __________

                              HEARING HELD
                           FEBRUARY 24, 2016



                                     
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 



                              ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

99-627                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

















                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona                JIM COOPER, Tennessee
DOUG LAMBORN, Colorado, Vice Chair   LORETTA SANCHEZ, California
MIKE COFFMAN, Colorado               RICK LARSEN, Washington
MO BROOKS, Alabama                   JOHN GARAMENDI, California
JIM BRIDENSTINE, Oklahoma            MARK TAKAI, Hawaii
J. RANDY FORBES, Virginia            BRAD ASHFORD, Nebraska
ROB BISHOP, Utah                     PETE AGUILAR, California
MICHAEL R. TURNER, Ohio
JOHN FLEMING, Louisiana
                         Tim Morrison, Counsel
                         Leonor Tomero, Counsel
                           Mike Gancio, Clerk
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Cooper, Hon. Jim, a Representative from Tennessee, Ranking 
  Member, Subcommittee on Strategic Forces.......................     2
Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Haney, ADM Cecil D., USN, Commander, U.S. Strategic Command......     5
McKeon, Hon. Brian P., Principal Deputy Under Secretary of 
  Defense for Policy, Department of Defense......................     3

                                APPENDIX

Prepared Statements:

    Haney, ADM Cecil D...........................................    40
    McKeon, Hon. Brian P.........................................    25
    Rogers, Hon. Mike............................................    23

Documents Submitted for the Record:

    Chart: Nuclear vs Conventional MDAP Bow Wave.................    71
    Letter from Secretary of the Air Force to Mr. Rogers.........    72

Witness Responses to Questions Asked During the Hearing:

    Mr. Bridenstine..............................................    75
    Mr. Larsen...................................................    75

Questions Submitted by Members Post Hearing:

    Mr. Cooper...................................................    84
    Dr. Fleming..................................................    91
    Mr. Garamendi................................................    87
    Mr. Rogers...................................................    79
    Mr. Takai....................................................    85
    
    
    
    
                     U.S. STRATEGIC FORCES POSTURE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                      Washington, DC, Wednesday, February 24, 2016.
    The subcommittee met, pursuant to call, at 3:33 p.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
      ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Rogers. I would like to call this hearing to order, 
this hearing of the House Armed Services Subcommittee on 
Strategic Forces.
    Today we are focused on the U.S. strategic forces posture, 
and we have again this year a tremendous pair of witnesses--no 
pressure, fellas--the Honorable Brian McKeon, Principal Deputy 
Under Secretary of Defense for Policy, Department of Defense, 
and Admiral Cecil Haney, Commander, STRATCOM [U.S. Strategic 
Command].
    I want to, as always, thank you all for the time it takes 
to prepare for these. I know it is an inconvenience, it takes a 
lot of time and effort, but it is very helpful to us. So I do 
appreciate that.
    We also appreciate the seriousness with which you have 
prepared for this hearing, and I assure you, we approach our 
responsibility to provide oversight policy and funding 
authorization for the Nation's nuclear deterrent, missile 
defense, and national security space systems and capabilities 
with the same seriousness.
    Your testimony will directly inform the policy and funding 
authorization decisions we make in the coming weeks as we 
prepare for the NDAA [National Defense Authorization Act]. 
These three mission areas could not be more important, indeed 
existential, to the Nation's security.
    Admiral Haney, I noted your recent appearance at the Center 
for Strategic and International Studies when you stated, quote: 
``We are out of time. Sustainment is a must. Recapitalization 
is a requirement . . . Our budget has a deterrent value of its 
own and reflects our Nation's commitment to our deterrent 
strategy . . . Our adversaries pay close attention to whether 
we back up our words with resources . . . Our choice is not 
between keeping the current forces or replacing them. Rather, 
the choice is between replacing those forces or risk not having 
them at all.'' Close quote.
    Admiral Haney, I hope you repeat this point as often as you 
can.
    To many in the public policy and advocacy machine in this 
city, they either aren't aware of this fact or they are 
willfully choosing to ignore it. We can't help those who are 
willingly choosing ignorance, but we shouldn't give up on those 
who just aren't aware of the facts.
    Mr. McKeon, I know you spent a significant amount of time 
and energy in the Department's Nuclear Enterprise Review of 
2013. I am eager to hear how you are ensuring the momentum 
achieved during this review is maintained, especially as we see 
key recommendations, like the replacement of Vietnam-era 
missile field security helicopters, that are languishing in red 
tape in the Air Force and the Joint Staff.
    And I know I don't have to tell you, but I feel it is 
essential that the American people are aware of the increasing 
threat we face in outer space. We are facing serious and 
growing foreign threats to our space systems. We need to work 
closely with STRATCOM and OSD [Office of the Secretary of 
Defense] to ensure that the warfighter has the capabilities and 
authorities to fight and win a war should it extend into space.
    With that, I recognize the gentleman, my friend from 
Tennessee, Mr. Cooper, for any opening statement he may want to 
make.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 23.]

STATEMENT OF HON. JIM COOPER, A REPRESENTATIVE FROM TENNESSEE, 
        RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Cooper. Thank you, Mr. Chairman.
    I would like to add my voice in welcoming the witnesses, 
and also emphasize for this public portion of the hearing that 
there probably are no more important issues that our Nation or 
the world faces, because these are existential issues. We have 
got to get this right. And I appreciate the long professional 
involvement of both of our witnesses in making sure that we do 
get these vital existential issues correct.
    It is also important from a fiscal standpoint, because 
literally this is a trillion-dollar subject here, and we have 
got to get that right as well to make sure that we have a safe, 
secure, and reliable nuclear deterrent as efficiently as 
possible. And that costs real money, because we are also 
talking long-range bombers here, we are talking about new 
submarines, we are talking about keeping our ICBM 
[intercontinental ballistic missile] missile fields state of 
the art.
    So these are extremely important topics. Sadly, a lot of 
our duties have to be held in secret. But I welcome the 
witnesses and look forward both to the public and the private 
portions of this hearing.
    Mr. Rogers. Thank you.
    And as always, your full opening statements will be 
accepted for the record, without objection.
    And now I recognize you, Mr. McKeon, for 5 minutes to 
summarize your opening statement.

   STATEMENT OF HON. BRIAN P. McKEON, PRINCIPAL DEPUTY UNDER 
     SECRETARY OF DEFENSE FOR POLICY, DEPARTMENT OF DEFENSE

    Mr. McKeon. Thank you, Mr. Chairman, Mr. Cooper, members of 
the subcommittee. Thank you for this opportunity to testify 
today on the fiscal year 2017 budget request for strategic 
forces. We are grateful in the Department for your continuing 
support of this critical mission of nuclear deterrence and 
nonproliferation.
    Earlier this month, Secretary Carter identified five 
evolving challenges that have driven the focus of the Defense 
Department's planning and budgeting this year. The first and 
second challenges reflect a return to great power competition 
with Russia and China; third is North Korea; fourth, Iran; and 
fifth, our ongoing fight against terrorist organizations.
    Each has implications for our current or planned strategic 
capabilities and posture. Let me address each of these briefly 
in turn.
    First, China is introducing qualitative advances into its 
nuclear and conventional military capabilities as it continues 
to rise in the Asia-Pacific region. We will continue our 
rebalance to maintain the regional stability that we have 
underwritten for 70 years and that has allowed many nations to 
prosper.
    Second, Russia poses one of our most pressing and evolving 
strategic challenges, challenges felt across the strategic 
forces mission. Russia has undertaken aggressive actions in 
Crimea, and elsewhere in Ukraine, and has adapted a pattern of 
reckless nuclear posturing and coercive threats. Russia remains 
in violation of the Intermediate-Range Nuclear Forces [INF] 
Treaty, and Russia remains unreceptive to the President's offer 
to negotiate further reductions following the New START 
[Strategic Arms Reduction] Treaty.
    Third, North Korea's evolving nuclear weapons and missile 
programs pose a continuing threat to the United States and our 
allies and partners. Last month, North Korea conducted its 
fourth nuclear test, and earlier this month conducted a 
ballistic missile launch that successfully placed a satellite 
into orbit.
    Fourth, as we work to counter Iran's malign influence 
against our allies and partners in the Middle East, we will 
remain vigilant for any reversal of course by Iran on its 
commitments under the Joint Comprehensive Plan of Action. 
Iran's ballistic missile program is the largest in the region, 
and we must continue to enhance our ability to defend against 
this ballistic missile threat today and in the future. As 
Secretary Carter has underscored, the nuclear deal does not in 
any way constrain or inhibit the ability of the United States 
to defend itself or our allies and partners.
    Finally, denying terrorists access to weapons of mass 
destruction and weapons-usable materials is an absolute 
imperative in the ongoing fight to defeat terrorist 
organizations.
    Let me focus briefly on some key details in the fiscal year 
2017 budget.
    First, on nuclear deterrence, although the President's 
ultimate goal is a world without nuclear weapons, he has been 
clear in his commitment to maintain a safe, secure, and 
effective nuclear arsenal for as long as nuclear weapons exist.
    This is the highest priority of the Department of Defense. 
We work closely with the Department of Energy to maintain the 
safety and security of our nuclear forces at the lowest 
possible number of weapons consistent with retaining a full set 
of options to respond to and to address current and potential 
threats.
    Our budget request focuses on maintaining stable and robust 
deterrence in a time of geopolitical uncertainty while also 
managing the transition to a modernized nuclear force through 
life extension programs for warheads, replacement of aging 
delivery systems, and enhancements to sustainment and 
operations of the current force. It also includes funding 
necessary to continue addressing the findings of the nuclear 
enterprise reviews.
    Our plan is fully consistent with the administration policy 
of a reduced role for nuclear weapons in our defense strategy 
and retains only those capabilities we need to sustain stable 
and effective deterrence.
    The effort to modernize our delivery systems and extend the 
life of our warheads across the triad and our nonstrategic 
nuclear force will require significant resources over the next 
decade and beyond. This critical investment is affordable if 
prioritized appropriately by the Department, the Congress, and 
the Nation.
    On missile defense, our request funds the development and 
deployment of a robust ballistic missile defense capability to 
protect our homeland, deployed forces, and allies and partners. 
North Korea's launch, which I recently mentioned, underscores 
the importance of BMD [ballistic missile defense] in protecting 
the homeland and the need to increase the number of our 
deployed Ground-based Interceptors to 44, develop a redesigned 
kill vehicle, and proceed with the development of Long-Range 
Discrimination Radar. Our budget funds all of these.
    As North Korea and potentially Iran make progress on ICBM-
class missile technologies, we must be prepared to address new, 
more complex threats in the next decade. To that end, our 
budget requests funding for investments in new technologies, 
including directed energy and the Multi-Object Kill Vehicle. 
Progress on these technologies, as well as adapting current 
technologies to new purposes, will enable us to meet the 
advancing threat and lower the costs of intercepting ballistic 
missiles.
    Our budget also reflects the Department's commitment to 
building regional missile defenses that are interoperable with 
systems deployed by international partners. We continue to 
implement the European Phased Adaptive Approach [EPAA] to 
missile defense, which is designed to protect our deployed 
forces and allies in Europe from attacks emanating from the 
Middle East.
    In December of last year, the Missile Defense Agency 
declared the Aegis Ashore defense system in Romania technically 
capable of defending against Iranian ballistic missiles. The 
request supports the implementation of phase three of EPAA, 
including the upcoming groundbreaking at the Aegis Ashore site 
in Poland, which will be completed in the 2018 timeframe.
    Mr. Chairman, let me briefly touch on space. In his 
Worldwide Threat Assessment testimony earlier this month, the 
Director of National Intelligence said that Russia and China 
understand how our military fights and how heavily we rely on 
space, and they are each pursuing destructive and disruptive 
antisatellite systems.
    To address these concerns, the Department conducted a 
portfolio-wide strategic review of our space systems, focusing 
on how we assure space capabilities in light of current and 
future threats. The results included significant new 
adjustments in the budget, starting with last year and 
continuing in this year. In addition, we are strengthening the 
governance of our space enterprise and providing an independent 
voice in providing assessments to the Secretary.
    At Air Force Space Command, we have established a Joint 
Interagency and Combined Space Operations Center that will 
allow us to experiment with new operational concepts across the 
national security space enterprise and develop new concepts and 
associated tactics for future operations.
    We appreciate your support and review of this budget, which 
is critical to our national defense. Thank you.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 25.]
    Mr. Rogers. Thank you.
    Admiral Haney, you are recognized for 5 minutes.

STATEMENT OF ADM CECIL D. HANEY, USN, COMMANDER, U.S. STRATEGIC 
                            COMMAND

    Admiral Haney. Good afternoon, Chairman Rogers and Ranking 
Member Cooper and members of this committee. I am honored to be 
with you today, and I am pleased to testify with Principal 
Deputy Under Secretary of Defense for Policy Mr. Brian McKeon.
    I am also honored to be here to represent my sailors, 
soldiers, airmen, and marines and civilians, my team, who carry 
out the very missions assigned to U.S. Strategic Command. They 
are dedicated professionals who represent our most precious 
resource and deserve our unwavering support.
    As a result of their efforts, our Nation's strategic 
nuclear deterrent force remains safe, secure, and effective and 
ready, and we are working hard to improve the resilience and 
flexibility in space and cyberspace. It is crucial that we 
modernize our strategic nuclear deterrence capabilities, which 
underpin our Nation's security.
    As you know, the current global security environment is 
more complex, dynamic, and uncertain than possibly at any time 
in our history, and our adversaries and potential adversaries 
challenge our democratic values and our security in so many 
ways. They are modernizing and expanding their nuclear 
capabilities, developing and testing counterspace and 
cyberspace technologies, and are advancing conventional and 
asymmetric weapons.
    Future deterrence scenarios will likely include multiple 
adversaries operating across multiple domains using anti-
access/area denial, asymmetric warfare, and escalate-to-
deescalate tactics. These trends affect strategic stability.
    Given all of this, the missions of U.S. Strategic Command 
remain important to our joint military forces, our Nation, and 
our allies and our partners.
    My command priorities guide our efforts. Comprehensive 
strategic deterrence, assurance, and escalation control is far 
more than just nuclear weapons and platforms. It also includes 
a robust foundational intelligence apparatus, space, 
cyberspace, conventional and missile defense capabilities, and 
comprehensive plans that link organizations together in a 
coherent manner.
    Additionally, we engage daily in a broad range of 
activities across our other mission areas: intelligence, 
surveillance, and reconnaissance; countering weapons of mass 
destruction; joint electronic warfare; and analysis and 
targeting.
    Achieving comprehensive strategic deterrence, assurance, 
and escalation control requires a long-term approach to 
investing in capabilities and a multigenerational commitment to 
intellectual capital. The President's budget for fiscal year 
2017 strikes a responsible balance between national priorities, 
fiscal realities, and begins to reduce some of the risks we 
have accumulated because of deferred maintenance and 
sustainment. This budget supports my mission requirements, but 
there is no margin to absorb new risk. Any cuts to that budget 
will hamper our ability to sustain and modernize our military 
forces.
    I thank you for this opportunity, and I look forward to 
your questions.
    [The prepared statement of Admiral Haney can be found in 
the Appendix on page 40.]
    Mr. Rogers. I thank you both for those opening statements. 
Now we will start with questions. I will recognize myself 
first.
    For both of you, have both of you participated in a nuclear 
exercise to demonstrate how the people and systems would work 
if they are ever called upon?
    Start with you, Mr. McKeon.
    Mr. McKeon. Mr. Chairman, in my prior job in the White 
House, I took part in an exercise with the director of the 
White House Military Office. It was somewhere in 2013. I can't 
remember the date.
    Mr. Rogers. Admiral Haney.
    Admiral Haney. Chairman, I have participated in a number of 
exercises as part of my job, as a minimum once a quarter, but I 
can't tell you how many I have had.
    Mr. Rogers. On nuclear exercises, was it your experience 
that the people and systems performed as you expected in those 
exercises?
    Admiral Haney. Yes, Chairman, they did.
    Mr. Rogers. Mr. McKeon.
    Mr. McKeon. Yes, they did. And part of the exercise that I 
was on was working on quality of the communications, and they 
actually performed better than we expected.
    Mr. Rogers. Good. Mr. McKeon, to your knowledge, in your 
tenure at NSC [National Security Council] and DOD [Department 
of Defense], has President Obama actually participated in such 
an exercise?
    Mr. McKeon. I don't know the answer to that, Mr. Chairman.
    Mr. Rogers. Okay. Could you find out and let me know back 
at your convenience?
    Mr. McKeon. We can check.
    Mr. Rogers. Admiral Haney, I call your attention to the 
charts on your TV screens to your left and right. These show 
the so-called acquisition bow wave in the Department of 
Defense. Is this a nuclear bow wave or does the Department have 
an acquisition bow wave across the services in practically 
every capacity? The chart may not be that helpful to you.
    [The chart referred to can be found in the Appendix on page 
71.]
    Admiral Haney. Chairman, I have seen a variety of charts 
relative to the need in our current plan in terms of needing 
resources in order to recapitalize and modernize our strategic 
forces. As you know, we have in many cases stretched out well 
beyond the life expectancy of many of our programs, and now we 
are at a point where we have to modernize various facets of our 
triad as well as our nuclear command and control capabilities.
    So that is what is creating this bow wave of sort that is 
discussed in various things, such as the Congressional Budget 
Office reports and what have you, that quantify it thereabouts 
5 to 6 percent of our associated expected departmental budget 
over those years.
    Mr. Rogers. Mr. McKeon, is the modernization of deterrent 
the highest priority of the Department of Defense?
    Mr. McKeon. It is, yes. And the Secretary, I believe, has 
testified to that in the past.
    Mr. Rogers. Excellent.
    We hear--and this is also for you--we hear some people 
saying that the need to have a debate on modernization of the 
triad. What are your thoughts on this? Has the administration 
not debated these issues? Has the President not made his 
decisions in Congress as well?
    Mr. McKeon. Mr. Chairman, I think I have seen some of the 
comments you may be referring to, and those are interesting 
comments, but they don't reflect the policy of the President or 
the administration.
    We have clear policy guidance from the Nuclear Posture 
Review, from the review on employment that was conducted early 
in the second term, and from the last Quadrennial Defense 
Review, and that guidance says we shall have a triad. And that 
is what we need to sustain and that is what we need to 
modernize. We won't be here for these investments--or at least 
I won't--in the next administration, but we are laying the 
foundation for the way ahead.
    Mr. Rogers. Excellent.
    Admiral Haney, I noted your stated concerns about the idea 
of overflights of the U.S. by Russia with a new advanced 
electro-optical sensor. The treaty also allows the Russian 
Federation to overfly the United States with infrared and 
synthetic aperture radar sensors. If electro-optical capability 
is at risk, what of these even more advanced capabilities, are 
they a risk?
    Admiral Haney. Chairman, regarding the Open Skies Treaty, 
as we look at how technology has developed, it is not 
surprising to me that there would be a desire to use more 
advanced capabilities in order to conduct that Open Skies 
Treaty.
    While I am concerned in terms of overflights of any ability 
of another nation to learn more about our overall critical 
infrastructure, I do have respect for said treaty in terms of 
the 32-some nations that are also part of that treaty, in which 
it allows for transparency and the ability of sharing 
immediately that information that that treaty is associated 
with.
    So as we make these advances and as Russia is asked to 
apply additional capability, there is a process that is going 
through by which this is being assessed. And I feel that I have 
a voice in that process going forward here as we measure the 
pluses and minuses associated with that approach.
    Mr. Rogers. Well, you realize that Congress as policymakers 
are going to need to take those risks into consideration and we 
depend on you to give us a heads-up as to what you see is the 
most threatening of those risks. And that is why I asked the 
question.
    With that, I will turn to the ranking member for any 
questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman.
    Let me point out the obvious here, which is there is an 
astonishing national consensus in both parties, among most all 
people, that the triad is important; in fact, it is vital to 
our national security, and it is our duty to keep it safe, 
secure, and reliable. That includes all the life extension 
programs, upgrades, to keep that capability state of the art.
    We almost should be thankful that we face a few rivals and 
would-be rivals in the area, because think of how difficult it 
would be to fund all this if there were none. So now we have 
something to complain about and also build support behind.
    But it is our unquestioned superiority that is what we must 
maintain. And I am just thankful that there is such a 
bipartisan consensus on these issues and that the admiral can 
testify in favor of the President's budget request 
wholeheartedly.
    I hope that this Congress will not only fund that amount, 
but actually find the real dollars to support it and not borrow 
that money, as we have for many other DOD expenditures.
    Mr. McKeon, on a much, much smaller issue, the Cooperative 
Threat Reduction Program is an important program, and I 
understand that you would like to expound on some of the 
activities happening in North Africa regarding that program.
    Mr. McKeon. Mr. Cooper, thank you.
    As you and I discussed briefly this morning in the office 
call, we have recently begun work on a Cooperative Threat 
Reduction Program in North Africa. As you know, this program 
had its roots at the end of the Cold War in the former Soviet 
Union, but over time it has expanded and Congress has given us 
the authority to expand this to other regions.
    And its specific authority here is to address an emerging 
proliferation threat. And what we are embarking on is working 
with the Government of Tunisia to strengthen its border and 
security of its border with Libya, which is quite porous, a lot 
of people moving back and forth across it. You are probably 
aware of the strike we took in western Libya this weekend 
against several people in a camp, including a leader suspected 
of the Bardo Museum attack in Tunis last year.
    So we think this is an important and urgent project because 
of the threat to Tunisia of terrorists moving across that 
border, as well as from ISIS [Islamic State of Iraq and Syria] 
and from AQIM [Al Qaeda in the Islamic Maghreb], in its western 
mountains. We have seen ISIS using sulfur mustard in Iraq and 
Syria, so it is not a leap to suggest they might undertake 
similar attacks in Libya.
    And so we are very focused on trying to help the Government 
of Tunisia, which started the Arab Spring and seeks to build on 
a new democracy, and it is under threat from a lot of places.
    Mr. Cooper. So this is an emerging threat on the Tunisian 
border to prevent Libyan WMD [weapons of mass destruction], not 
nuclear but chemical, from possibly crossing that border?
    Mr. McKeon. That is correct. And I should say, Mr. Cooper, 
we have done similar projects strengthening border with an eye 
toward the WMD issue in Ukraine in the last couple of years and 
in Jordan as well.
    Mr. Cooper. Oh, I appreciate that clarification.
    Mr. Chairman, I have no more questions at this time.
    Mr. Rogers. The Chair now recognizes the gentleman from 
Colorado, Mr. Lamborn, for 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Thank you both for being here and for the work that you 
each do for our country.
    Admiral Haney, it is always good to talk with you. Thank 
you for our earlier visit. And I would like to follow up on 
something we chatted about briefly earlier, and that is the 
JICSpOC [Joint Interagency Combined Space Operations Center]. 
And I am encouraged to see that you are using rapid acquisition 
authority for that and also to see that the GEON [GPS Enhanced 
Onboard Navigation] is in the budget request. When do you think 
the JICSpOC will be fully operational?
    Admiral Haney. Congressman Lamborn, thank you for that 
question. The Joint Interagency Combined Space Operations 
Center, JICSpOC, very important to me and your Strategic 
Command and I think to our Nation, particularly as we work 
right now through our experimentation process, which goes 
through this summer, such that we can look at refining CONOPS, 
concept of operations, which will further help define what we 
need for the future.
    So we have completed a couple of those experiments, pretty 
elaborate, bring in professionals across our Department of 
Defense space as well as our Intelligence Community space, 
coming together, working in a synergetic way so that we can 
look at how do we have space indications and warnings, 
situational awareness, attribution capability, all the way to 
what to do about it if that occurs.
    As such, this will take some time. I don't have a discrete 
timeline for you right now. We are working with the Office of 
Secretary of Defense, Joint Staff, and others in terms of 
providing those refined concepts of operation, which will 
further define that timeline. But I am encouraged that we have 
some capability just in where we have experimented if we needed 
to pull it together in a hurry to take matters at hand.
    Mr. Lamborn. Okay, thank you.
    And for anyone who is unaware of what is happening here, it 
is just a way of integrating the DOD and the Intelligence 
Community so that they can look at space assets and what they 
have to offer together. In other words, the integration part is 
so critical there.
    Do you see roadblocks going forward? And do you have all 
the authorities you need to make sure this capability gets 
fielded as rapidly as it needs to be?
    Admiral Haney. Congressman, as part of this, we are working 
through to really understand those authorities either we may 
need in heightened tensions and what have you, in that regard, 
as we work through various scenarios associated with it.
    As of right this moment, I have the authorities I need in 
order to work through this concept. There may become a time in 
the future where additional authorities are required.
    Mr. Lamborn. And do you see any roadblocks on the way going 
forward?
    Admiral Haney. Right now, the biggest roadblock, I would 
say, is working to establish what frequently is called, like, a 
common operational picture, and how we can look at the 
dynamics, space situational awareness, in a more refined manner 
as we look at the threats that other nations are working in 
their counterspace programs. We are working on that, as you 
mentioned the GEON-type concept, as a team right now. But we 
have to get there, and we are working on helping to define that 
through this experimental phase of the JICSpOC.
    Mr. Lamborn. Okay. Thank you so much.
    And I am going to shift gears completely. And this is kind 
of technical, but it is an important question that I have 
worked with staff on. The Air Force is completing its analyses 
of alternatives for the OPIR [Overhead Persistent Infrared] and 
AEH[F] [Advanced Extremely High Frequency] systems. Can you 
assure us that the analysis of alternatives will fully take 
into account your requirements, that is the warfighter 
requirements? And can you send us, send the committee written 
details on the AOAs when the AOAs are completed?
    Admiral Haney. Congressman, I would say yes to both 
questions. I work very closely with the Air Force and with the 
principal Department of Defense space adviser, Secretary James, 
as well as the Office of Secretary of Defense staff as we look 
at this going forward. But I am a teammate in terms of working 
the analysis of alternatives for those programs.
    Mr. Lamborn. Thank you so much.
    Mr. Rogers. The Chair now recognizes the gentleman from 
Nebraska, Mr. Ashford, for 5 minutes.
    Mr. Ashford. Thank you.
    Admiral Haney, thanks again for keeping me abreast and our 
office abreast of the issues that you are raising here today 
and other issues as we have been proceeding along. And thank 
you for your work at Offutt and at STRATCOM in our area. It is 
exemplary work and admired by everyone. So thank you.
    I just want to, if I could, just reiterate what the 
chairman asked about the Open Skies issue. I did notice in our 
Omaha World-Herald today a discussion that you had had 
concerning that. And I would second the chairman's comments 
about, as we move forward, to be clear as to what we should or 
shouldn't do in regard to that. And also the fact that we do 
have missions from Offutt in the 55th that are part of that 
Open Sky, and so obviously have concerns about it in that 
regard. So anything you can do to keep us abreast would be 
great.
    I have a question though, totally unrelated, really, I 
think to probably the budget, and we have had this conversation 
before. And one of the concerns, very briefly, and we can talk 
about it further later, but this whole idea of standardizing 
cyber education and cybersecurity issues so that as this 
becomes more advanced and as the need for workforce in this 
area increases.
    What are your thoughts generally about trying to come up 
with some kind of standardized way to train our cyber force, 
and as the threats are so dynamic, so frequently changing, that 
if we have some sort of standardized way to educate our people? 
Do you have any general thoughts on that?
    Admiral Haney. Congressman Ashford, first and foremost, the 
Department is working--Joint Staff is working--on an approach 
to ensure all of our employees, all of our workforce, all of 
our sailors, soldiers, airmen, marines, do have a basic 
understanding of what we call cyber hygiene in terms of their 
role, one as a sensor and reporting and understanding what 
types of things they see on cyber and get those reported to the 
necessary team that works that.
    So you have standardization of the population as a whole 
and the workforce as a whole, then you have the standardization 
of the training associated with those that are at a higher 
level of working cyber defense and those types of operations 
for, for example, U.S. Cyber Command and the services and the 
work to ensure we have the necessary capability to protect the 
military systems and also to work to defend the Nation.
    Mr. Ashford. As we reach out to the private sector in 
obtaining expertise as we move forward, do you feel work needs 
to be done in how we train those individuals so that they 
better understand the standards that are applied in the 
military? Do you see that evolving?
    Admiral Haney. I know a lot of the industry teams I talk 
to, et cetera, are very concerned about cyber as well. Across 
the country as a whole I think the knowledge of the threat is 
improving. I do believe we have a lot more work to go in that 
regard. And my commander for U.S. Cyber Command, Mike Rogers, 
has been involved in a variety of different areas in coupling 
together with other outside Department of Defense organizations 
in that regard.
    Mr. Ashford. Thank you, Mr. Chairman.
    Thank you, Admiral.
    Mr. Rogers. The Chair now recognizes the gentleman from 
Colorado, Mr. Coffman, for 5 minutes.
    Mr. Coffman. Thank you, Mr. Chairman.
    Mr. McKeon, you mentioned the Joint Interagency and 
Combined Space Operations Center, or JICSpOC, in your written 
statement. Can you briefly discuss how this effort contributes 
to space mission assurance?
    Mr. McKeon. Congressman Coffman, this is a little bit of an 
operational experiment, as Admiral Haney said. It is for 
focusing on space situational awareness and coordination 
between ourselves and the IC [Intelligence Community]. And what 
they have been working on is, I think, a series of vignettes to 
sort of understand the operating picture and how we are 
integrating with our IC colleagues and even the private sector 
and some allies at some future point.
    So it is still early days in it. The deputy secretary has 
focused a lot on this, and he has already gone out there to pay 
a visit to it. I would defer to Admiral Haney to the other 
details he would have.
    Mr. Coffman. Sure. Admiral Haney.
    Admiral Haney. Congressman, we have been working a bit on 
space mission assurance even before we had the JICSpOC. What is 
nice about the JICSpOC concept is it is really honing in our 
efforts and working as a team, as was mentioned here. The 
business, first and foremost, very complicated environment by 
which we are working in, and the key of integrating all of our 
combined efforts.
    And that is why taking an interagency approach to this is 
very important in terms of being able to share, move 
information in a timely manner, and then have a more 
synergistic approach to the problem with both DOD and IC assets 
going forward, particularly as we look at what our 
adversaries--potential adversaries--are working toward, 
everything from jamming, lasing, terrestrial launch rockets 
into space, and on-orbit kind of capabilities.
    Mr. Coffman. Sure. Admiral Haney--and then I will go to Mr. 
McKeon--we have heard a lot about the threats from North Korea 
and Iran in terms of missile threats. Can you comment on our 
missile warning posture in relation to these emerging threats?
    Admiral Haney. Congressman, with regard to missile warning 
posture, 24/7 I have service men and women that are manning 
stations, one, to very quickly report through our overall 
constellation of any launch that occurs anywhere on the planet. 
That information is moved quickly. It is backed up and verified 
by land-based radars in terms of things so that we can 
ascertain whether there is an attack against America or attack 
against an ally, or is it something we expect in a test, or 
what have you. And there is a process and a procedure that 
moves that information all the way through command centers, and 
what have you, in terms of things. So that piece, I think, 
works very well today.
    Mr. Coffman. Do you have anything to add, Mr. McKeon?
    Mr. McKeon. I don't have anything to add to that, sir.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from Washington 
State, Mr. Larsen, for 5 minutes.
    Mr. Larsen. Thank you, Mr. Chairman.
    Mr. McKeon, the CBO [Congressional Budget Office] has 
estimated that the cost of maintaining nuclear weapons and 
delivery vehicles to be approximately about $340 billion over 
10 years. Is that an estimate that you agree with, the CBO 
estimate?
    Mr. McKeon. Maintaining the current infrastructure now, 
including modernization, or just sustaining what we have?
    Mr. Larsen. I think that is including modernization.
    Mr. McKeon. It is probably in the ballpark, Congressman. I 
think our sense of the modernization in the years ahead is 
between $350 billion and $450 billion.
    Mr. Larsen. Over the next 10 years?
    Mr. McKeon. I think that is the number.
    Mr. Larsen. And somewhere around--although 30 years is a 
long way from now, we will probably all be gone by then--there 
is a trillion-dollar estimate from a lot of outside groups for 
over 30 years. Does that sound about right?
    Mr. McKeon. I would have to check on that. It may include a 
lot of ongoing sustainment and operation. It is not just the 
recapitalization.
    Mr. Larsen. Sure. Okay. So the point I am getting at is the 
answer to your question earlier to Mr. Rogers about this being 
the highest priorities in the budget. If these are the highest 
priorities in the budget then, again, you mentioned you get to 
go--knocking on wood we get to stick around. What does that 
mean for the other priorities in the budget, without adding 
dollars or adding relatively more dollars, what does that mean 
longer term for budgets, defense budgets?
    Mr. McKeon. Sir, it is clear that the future Congresses and 
future administrations face a big challenge with this. I think 
we discussed it a little bit in the hearing that Chairman 
Thornberry had last summer with the deputy secretary and the 
vice chairman, where we start in 2021, it is in the current 
Future Years Defense Program with the Ohio Replacement Program. 
And right now for the nuclear enterprise in DOD it is about 3 
percent of the budget. It will grow to 5 or 6 percent during 
this recapitalization period, so it is doubling, but still not 
a huge part of the Department budget.
    I think our leadership would say today, if we continue to 
see the fiscal constraints that are in place, Budget Control 
Act is still there, notwithstanding the 2-year relief from the 
balanced budget deal, we would probably need some top-line 
relief in the 2020s in order to accommodate this. But as 
Secretary Carter said, it is the top priority, so we need to 
figure out a way to pay for it.
    Mr. Larsen. I would just note a doubling of billions of 
dollars, even though it might be 3 percent to 5 percent, is a 
lot of money.
    Mr. McKeon. Indeed.
    Mr. Larsen. Still a lot of money and still puts a lot of 
pressure on the rest of the budget. I just want to be sure we 
are clear about that.
    Can you talk a little bit about the THAAD [Terminal High 
Altitude Area Defense] missile defense batteries and the 
discussion going on with South Korea and what we can expect. Is 
South Korea ready to incorporate that into their defenses? And 
if an agreement was signed today, actually how long would it 
take until a THAAD system could be even operational in the ROK 
[Republic of Korea]?
    Mr. McKeon. As you know, we recently announced with our 
Korean partners, consultations on deploying THAAD to the 
Republic of Korea. And I think there is a formal meeting next 
week General Scaparrotti mentioned in his testimony this 
morning. And I think probably the long pole in the tent is the 
site, the land for the battery. And I don't know how long that 
would take to come to an agreement with the Koreans on the 
funding for that.
    I think once we had it in place, I don't think it would 
take very long to deploy it. We have the battery available. So 
I think that would be the main issue in the near term.
    Mr. Larsen. Admiral Haney, you spoke a little bit this 
morning, I just want to get your feedback again on a recent GAO 
[Government Accountability Office] report that found that 
overlapping testing and acquisition of additional interceptors 
for Alaska risk compromising the reliability of the system. And 
I want to know how much you would agree with that analysis, if 
at all; and then related, are you concerned about the deterrent 
capability of that system as a result?
    Admiral Haney. Congressman, I think it is very important 
relative to that report that we are able to populate our 
missile fields up to that 44 number by 2017, which is the plan. 
And as I look at the priorities for missile defense, it is also 
very important that we are able to conduct the necessary 
testing so that we can have a most reliable kill vehicle as 
well as discrimination. So getting to the long-range 
discriminating radar is important for a future, and in looking 
at the other alternatives so that we can work that cost curve 
associated with our approach per missile so that we can be even 
better as a deterrent.
    Mr. Larsen. Thanks.
    I think that is good for me for now. Thanks. Yield back.
    Mr. Rogers. The Chair now recognizes the gentleman from 
Oklahoma for 5 minutes.
    Mr. Bridenstine. Well, thank you, Mr. Chairman.
    And thank you, gentlemen, for being here and testifying 
before our committee.
    Admiral Haney, I wanted to talk to you for a second about 
the JSpOC [Joint Space Operations Center]. We have had 
opportunities to talk about it. We have heard testimony on this 
committee from General Raymond, when he was JFCC Space [Joint 
Functional Component Command for Space], that space is getting 
more contested, more congested. And one of the challenges they 
have at the JSpOC is doing all of the conjunction analysis and 
reporting not only for DOD purposes but also for all the 
commercial operators and foreign operators.
    And as this continues, the burden is getting bigger and 
bigger. And I would like to hear from your perspective, do you 
believe this burden is going to continue to grow with all the 
commercial activities and foreign activities in space?
    Admiral Haney. I absolutely do think the activities in 
space will continue to grow, which ultimately means the 
activities that our Joint Space Operations Center there in 
Vandenberg, California, that works space situational awareness 
from that point, absolutely, will continue to grow.
    Mr. Bridenstine. We have also heard testimony from General 
Hyten and General Raymond about not wanting the DOD to be the 
FAA [Federal Aviation Administration] for space. Is that a 
concern that you share as the commander of STRATCOM?
    Admiral Haney. Well, I think when we say we don't want to 
be the FAA for space, what does that mean? When I hear that, 
what is really being discussed is that is in the bin of what I 
call space traffic control, in terms of things.
    As the Department of Defense with critical capability in 
space, we don't get a pass, we have to understand space 
situational awareness. And I would say as the years go on, 
giving where potential adversaries are investing in 
counterspace capability, we are going to have to have even 
better space situational awareness capability, data fusion 
capability, et cetera. And this is some of the work that is 
ongoing here as we experiment in the JICSpOC, the Joint 
Interagency Combined Space Operations Center.
    Mr. Bridenstine. Right. So the concern I have is that as we 
continue moving forward with all of the activities--we have 
heard, you know, OneWeb is launching a constellation of 800 
satellites into low-Earth orbit [LEO], SpaceX is talking about 
a constellation of 4,000 satellites into low-Earth orbit--it 
seems at some point, I think everybody agrees, we have got to 
make sure that the DOD is the number one entity in the world 
when it comes to space situational awareness, not only taking 
advantage of all of our sensors and our software, but also 
taking advantage of what commercial is doing in integrating 
commercial capabilities, and even what foreign countries are 
doing, that are our partners and allies integrating that as 
well.
    My concern is that we could lose focus by really taking up 
a lot of our manpower resources to do conjunction analysis when 
there are two, say, commercial communication satellites in LEO, 
which isn't really the case these days but in the future will 
be, that conjunction analysis in mass volumes could really 
burden the JSpOC in the future. And I just want to make sure 
that that is something that you are thinking about as the 
commander of STRATCOM as we move forward.
    Admiral Haney. Absolutely, Congressman. I would just say, 
as we look at this, and like you said, as Space Fence comes on 
board here, the amount of data will come up, et cetera, but 
there are certain attributes that have to be done even from a 
space traffic control as well as space situational awareness. 
And with it, we have to have information assurance. Data 
protection has to be part of that as we go forward. And with it 
we have to have automation and better fusion capability.
    So however we do it in the future, those are the 
attributes. We are clearly working and definitely thinking 
about that going forward.
    Mr. Bridenstine. I am running out of time here, but I just 
want to get this, maybe you can respond in writing at some 
point. When we go forward with the future communication 
architecture, one of the challenges we have on this committee 
is not getting an accurate assessment of SATCOM [satellite 
communications] utilization.
    What percentage of our SATCOM, how much gigabits per second 
or gigabits in general are flowing through commercial vice 
military, and which commercial satellites are carrying most of 
the capacity, and in what regions? And do we have any 
underutilized capacity? Are we purchasing capacity beyond what 
we need? Maybe there are areas where we don't have enough 
capacity.
    So just getting an accurate assessment of SATCOM 
utilization would be very valuable for us. And I know that is 
one of the missions of STRATCOM and very much appreciate if we 
could get an update there.
    Admiral Haney. Absolutely, Congressman Bridenstine.
    [The information referred to can be found in the Appendix 
on page 75.]
    Mr. Bridenstine. Thank you, Admiral.
    Mr. Rogers. Thank the gentleman.
    The Chair now recognizes the gentleman from Montana, Mr. 
Zinke, for 5 minutes.
    Mr. Zinke. Thank you, Mr. Chairman. I appreciate the 
opportunity to be with your committee today.
    Admiral, my background is as Navy SEALs [Sea, Air, Land 
teams]. And I have spent a lot of time looking at security, and 
recently I went out to Malmstrom Air Force Base. And I am 
concerned about the UH, the helos, particularly the Vietnam-era 
Hueys. From talking to folks on the ground looking at it, and I 
concur, these are aging helicopters, as well as they don't have 
the lift and capacity. And if they do get an alert situation, 
they just don't have the hover time and the distances in 
Montana and I assume Minot. And I understand that you did go 
out to exercise Mighty Guardian recently. Do you share my same 
concerns about the Hueys?
    Admiral Haney. Congressman, absolutely, in terms of 
thinking very crisply associated with what we need to do to 
improve security of our missile fields, and part of that effort 
has included looking at those UH-1s and working with the Air 
Force and Joint Staff in terms of our methodology going 
forward.
    So I know the Air Force has a plan now by which they plan 
to work to replace those helicopters, but the attributes you 
listed are the attributes that concern me in terms of the 
capability, not just now, but into the future.
    Mr. Zinke. Well, Mr. Chairman, I would like to enter into 
the record a response from the Secretary of the Air Force to 
Chairman Rogers. In it, reading through it, she notes until we 
replace the Hueys, it is not going to be possible to meet the 
alert requirement in that letter.
    [The information referred to can be found in the Appendix 
on page 72.]
    Mr. Zinke. Are you familiar with the letter, Admiral?
    Admiral Haney. I am not exactly sure which letter you are 
talking about. I am understanding of the requirements 
associated with what we need the security helicopters to do.
    Mr. Zinke. You would concur, though, that it is a priority 
to make sure we have an alert requirement and that the teams 
that are operating have the right aircraft and the right 
capacity and lift?
    Admiral Haney. Absolutely, sir.
    Mr. McKeon. Congressman, if I could interject, the deputy 
secretary is very focused on this, and we have had discussions 
about an interim solution until the Air Force procures the 
replacement. So we don't have a solution yet, but it has gone 
up to the deputy and we will meet Admiral Haney's requirement.
    Mr. Zinke. I do sit on the seapower side of it, and I know 
that we looked at, as the Navy moves around their helicopters, 
their MH-60s, to see whether or not it would be possible to 
trans-deck some of those, and it doesn't seem possible. So I 
think the solution is to look at maybe perhaps the Army 
contractor, find a vehicle where we can get you the right 
helicopter replacement.
    I came in the service in 1985. I remember the Hueys. But I 
haven't flown on a Huey since the mid-1990s. I was surprised 
when I went out there and saw them. They are an aging aircraft, 
but they just don't have the lift. Montana has got a lot of 
expanses, let alone the weather, and then just the lift 
capacity. If they do get in trouble, they just don't have the 
lift to get the right people out there and stay in station.
    Sir.
    Mr. McKeon. I was just going to say, I have ridden the ones 
at F.E. Warren. They run very well. And the people who maintain 
them know how to maintain them, and they have a high 
operational readiness rate. But they are very old, as you say, 
and there is the weight issue.
    Mr. Zinke. Thank you for your service, sir.
    I yield the remainder of my time.
    Mr. Rogers. I thank the gentleman. His letter will be taken 
into the record, without objection.
    Mr. Rogers. And you know, I am glad to hear, Secretary 
McKeon, that you have said that you all have taken that up, 
because it is something that I have put a lot of attention on, 
as has the ranking member. We are very concerned about seeing 
those helicopters replaced, and I hope that you can help the 
Air Force stop being so worried about being sued and start 
making the right decisions and the other stuff will work itself 
out.
    I just wanted to go back before I close out, the topic that 
I was talking about with you, Admiral Haney, before I yielded 
to the ranking member for his questions, and that goes back to 
this Open Skies issue. Can you discuss with us in this open 
setting what exactly the Russians are overflying as far as 
infrastructure and what they are getting out of those flights?
    Admiral Haney. Chairman Rogers, I think that might be 
better discussed in a closed hearing in terms of things. But 
they follow a flight plan and they fly over the United States. 
We know where they are going to go, that sort of thing, that 
covers a lot of areas. It is a transparency treaty, so likewise 
we work with those other 30-some nations to also likewise fly 
over Russian areas.
    Mr. Rogers. Well, I will ask you in the closed session 
then.
    What about this, can you talk about this in the open 
setting: Do you know how Open Skies fits into the Russian 
overall collection strategy?
    Admiral Haney. Well, I don't have the Russian intelligence 
guidebook available to me, but I will say that given the lack 
of overhead capability that the Russians have, Open Skies gives 
them a capability to be able to reconnoiter parts of our 
country and other nations as part of that.
    Mr. Rogers. Okay. That is all I have got.
    I yield to the ranking member for any additional questions 
he may have.
    Mr. Cooper. Thank you, Mr. Chairman. I am going to wait 
till the classified session.
    Mr. Rogers. Okay. Then I will go to Mr. Larsen from 
Washington State. I understand he has another set of questions.
    Mr. Larsen. Yeah, just one question, and this is to give 
some context for tomorrow. We have the full committee as 
General Breedlove is coming to testify. So I wanted to hear 
from both of you, you can choose which one goes first, what 
would be your recommendations in response to Russia's 
noncompliance with the INF Treaty, thinking specifically the 
INF Treaty, but also broadly.
    Mr. McKeon. Congressman Larsen, I spent a good deal of time 
in December in this room with your colleagues and the 
colleagues on the House Foreign Affairs Committee on this 
issue, so I would refer you for an in-depth discussion there. 
But in brief, what we have done is looked at Russia's 
activities, not just in regard to its violations of the INF 
Treaty but its other behavior in Europe and its fairly 
belligerent rhetoric, and made a number of investments in the 
defense of Europe and in technologies that will be utilized in 
Europe against the A2/AD [anti-access/area denial] challenge 
that Russia poses, including because of their development of 
this noncompliant INF missile.
    So we are putting a lot of thought, work into it at EUCOM 
[European Command] and in the Department, and a lot of 
resources to respond to what we see as a much broader Russian 
challenge, not just in its behavior in INF but what they have 
done in Ukraine, some of the rhetoric. And there are some other 
treaties where we have compliance concerns including the Open 
Skies Treaty.
    If I could amend briefly the answer before, Mr. Larsen, and 
we will get you a written answer. I may have misspoken. Our 
understanding is the $350 billion to $450 billion estimate is 
for modernization over more than a decade. But I will clarify 
that for the record.
    [The information referred to can be found in the Appendix 
on page 75.]
    Mr. Rogers. All right. With that, we will recess for 5 
minutes while we move to room 2216 for the closed portion of 
this hearing.
    [Whereupon, at 4:28 p.m., the subcommittee proceeded in 
closed session.]


      
=======================================================================




                            A P P E N D I X

                           February 24, 2016

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 24, 2016

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      

      
         
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           February 24, 2016

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
   
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 24, 2016

=======================================================================

      

              RESPONSE TO QUESTION SUBMITTED BY MR. LARSEN

    Mr. McKeon. The Congressional Budget Office (CBO) estimated the 
total cost of U.S. nuclear forces at $348 billion over the 10-year 
period of FY 2015 through FY 2024. This estimate included both 
sustainment of the existing force and modernization, for both DOD and 
DOE, as well as Nuclear Command, Control, and Communications (NC3). The 
CBO estimate also included a $49 billion projection for cost growth.
    The FY 2015 Report on the Plan for the Nuclear Weapons Stockpile, 
Nuclear Weapons Delivery Systems, and Nuclear Command and Control 
System Specified in Section 1043 of the National Defense Authorization 
Act for Fiscal Year 2012 (the ``1043 Report'') projected a total cost 
of $298 billion for U.S. nuclear forces over the same period of FY 2015 
through FY 2024. After accounting for the CBO's projection of cost 
growth, the two estimates for 10-year total cost are approximately 
equal.
    While multi-decade cost estimates are of questionable utility, we 
expect the total cost for DOD nuclear modernization to be in the range 
of $350 billion-$450 billion over the next two decades (FY 2017 through 
FY 2036), with a projected average cost of about $19 billion per year. 
In addition to these modernization costs, about $12 billion of the 
annual DOD budget is currently allocated to sustainment and operation 
of existing nuclear forces and Nuclear Command, Control, & 
Communications (NC3).   [See page 18.]
                                 ______
                                 
          RESPONSES TO QUESTIONS SUBMITTED BY MR. BRIDENSTINE
    Admiral Haney. DOD user total supported commercial SATCOM 
throughput is 8.024 Gbps, and the total MILSATCOM supported throughput 
is 17.578 Gbps. Total usage equates to 25.601 Gbps of which 31.3 
percent is commercial. Reference: Active Satellite Communications 
(SATCOM) Usage by Department of Defense (DOD) Users, DISA IE53, May 
2016   [See page 15.]
    Admiral Haney. a. Eutelsat 70B (E70B); Coverage area: the Middle 
East, Central Asia, South East Asia, Australia, Europe, and parts of 
Africa b. Eutelsat 36B (E36B); Coverage area: the Middle East, Central 
Asia, Europe, Africa and Russia c. Eutelsat 21B (E21B); Coverage area: 
the Middle East, Central Asia, Europe, and North Africa d. Intelsat 906 
(IS 906); Coverage area: the Middle East and India e. Intelsat 22 (IS 
22); Coverage area: the Middle East, Africa, and Europe   [See page 
15.]
    Admiral Haney. USSTRATCOM lacks the necessary operational fidelity 
to definitively address these questions; however, initiatives are being 
taken to eliminate these data gaps. The DOD has directed creation of 
service alternatives to address fiscal, operational, and policy 
challenges, and ``specific pathfinder activities'' the DOD should 
undertake that could improve commercial SATCOM acquisition and 
management. DOD has charged DISA and Air Force with pathfinder 
development and execution. The DISA acquisition pathfinders are 
intended to help DOD understand its global commercial SATCOM 
requirements & utilization while analyzing alternative commercial 
leases in the short-term. The Air Force pathfinders are intended to 
investigate better ways to buy commercial SATCOM in the long term. 
Currently, Air Force and DISA have 5 pathfinder projects each in 
various stages of development and execution. DISA pathfinder 
initiatives will not be completed in FYI 7. The Pathfinders are being 
institutionalized into a business process that will be executed in an 
iterative fashion and will support preparation of the annual wideband 
SATCOM Plan. Air Force Pathfinder 1 is complete with the four remaining 
expected to be incrementally completed through 2019. Furthermore, the 
Joint Staff has approved a Commercial SATCOM Centralized Management 
(CSCOM) Concept of Operations (CONOPS) leveraging the pathfinders to 
investigate more efficient means of operationally managing an 
enterprise pool of COMSATCOM bandwidth for the DOD, particularly in the 
more competitive or contested environments.   [See page 15.]
    Admiral Haney. Yes, globally. a. The Defense Planning Guidance 
(DPG) study ``Restoring SATCOM in a Degraded Environment'' concluded, 
successful Operations Plan (OPLAN) execution is at risk due to 
insufficient SATCOM capacity and is compounded in a degraded 
environment. b. Current day to day lower priority missions* (i.e. 
training, exercise, VIP support, RDT&E and Miscellaneous) go 
unfulfilled due to lack of funds and/or capacity and coverage 
shortfalls in various geographic regions. Most priority missions are 
successfully executed; however, these missions may also be challenged 
due to user saturation or on-orbit availability in South West Asia 
(SWA), Africa, and portions of the Pacific.   [See page 15.]
    * Mission priority is in accordance with CJCSI 6250.01 SATCOM 
Priority Table


      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 24, 2016

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. Why is it important that NATO declare operational 
capability of the European Phased Adaptive Approach this summer when 
the Alliance gathers for the Warsaw Summit?
    Mr. McKeon. EPAA Phase II provides NATO (Ballistic Missile Defense) 
(BMD) with a roughly tenfold increase in capability since NATO declared 
Interim BMD Capability at the Chicago Summit. This tenfold increase 
comes from Aegis Ashore in Romania; four Aegis BMD capable ships 
homeported at Rota, Spain; a more capable interceptor; a more capable 
Aegis weapons system; and an improved NATO command and control system. 
A NATO declaration of BMD IOC at the Warsaw Summit sends three 
important messages: first, that the United States is committed to the 
defense of our deployed forces and Allies by increasing the capability 
of NATO BMD; second, that Allies recognize the importance of this 
contribution; and third, that NATO follows through on its security 
commitments.
    Mr. Rogers. When you testified in December of 2014 and in December 
of 2015, you promised this subcommittee, and a sister subcommittee on 
another committee, a briefing on the military options that have been 
promised to respond to the Russian Federation's violations of the INF 
treaty. That briefing has not yet happened. When will that briefing 
occur?
    Mr. McKeon. I understand that Chairman of the Joint Chiefs of Staff 
is working to arrange a time of brief Chairman Rogers and Ranking 
Member Cooper.
    Mr. Rogers. We received a response to a question for the record you 
were asked in December concerning press reporting of negotiations with 
Pakistan concerning nuclear weapons. The response indicated there were 
no discussions that would lead to a ``legally binding'' agreement. To 
be clear, are there any discussions, including those that would lead to 
an agreement that would not be legally-binding?
    Mr. McKeon. I believe the question for the record to which you 
refer was directed to the State Department. I defer to the State 
Department to provide additional information.
    Mr. Rogers. Recently, I saw a press report that the United States 
floated to Russia a proposal to undertake further nuclear arms 
reductions. I have to ask, is this true? Have the Russians in any way 
even attempted to resolve their violation of the INF treaty? Has it 
done anything to resolve compliance concerns on the Open Skies Treaty? 
How about the Biological Weapons Convention? The Chemical Weapons 
Convention?
    Mr. McKeon. The United States has and will only consider nuclear 
reductions that are in the U.S. national security interest and that of 
our allies and partners. In June 2013, President Obama stated U.S. 
willingness to negotiate up to a one-third reduction in deployed 
strategic warheads from the level established by the New START Treaty. 
Although the Administration's desire for such a negotiation remains, 
progress requires a willing partner and a conducive strategic 
environment, which we do not have currently.
    Russia has not been forthcoming with any information related to the 
existence of its Intermediate-Range Nuclear Forces (INF) Treaty 
noncompliant missile.
    With regard to the Open Skies Treaty, the United States continues 
to engage with Russia and other Treaty Parties in the Open Skies 
Consultative Commission in an effort to resolve our compliance concerns 
and to improve Treaty implementation. In the meantime, we have adopted 
a very strict interpretation of our Treaty obligations, given Russia's 
failure to address these concerns to date. We are working with allies 
and partners to engage Russia on a path to full implementation. Open 
Skies observation flights by the United States and other Treaty Parties 
continue over Russia regularly and most of these proceed without issues 
arising.
    The United States still cannot confirm Russia's compliance with the 
Biological Weapons Convention, as it remains unclear whether Russia has 
fulfilled the obligations inherited from the Soviet Union to destroy 
completely or divert to peaceful purposes items specified in Article I 
of the Convention.
    Similarly, the United States still cannot confirm Russia's 
compliance with the Chemical Weapons Convention, as it is unclear if 
Russia has met its obligations for declaration of its chemical weapon 
stockpiles, production facilities, and development facilities.
    Mr. Rogers. Why has the President consistently supported the ICBM 
leg of the triad? Why does it continue to be relevant?
    Mr. McKeon. The Intercontinental Ballistic Missile (ICBM) force 
provides the President with an important and unique contribution to our 
overall deterrent capabilities. ICBMs provide our most rapid response 
capability, and current U.S. nuclear posture preserves that 
responsiveness and strengthens strategic stability by maintaining most 
ICBMs on alert. The ICBM force also ensures that no adversary could 
launch a comprehensive counterforce attack on the United States by 
striking only a few targets. Finally, ICBM upload capability provides 
the ability to hedge against geopolitical surprise and technical 
problems in other parts of the arsenal. These attributes continue to 
contribute significantly to maintaining strategic stability.
    Mr. Rogers. As a policy matter, what should an adversary know if it 
thinks about attacking our MW and NC3 satellites? Is that adversary 
crossing a redline by taking our our protected comms and eyes that are 
designed to maintain situational awareness during a nuclear war? These 
capabilities are special, right?
    Mr. McKeon. Adversaries should understand that any attack against 
the United States, including attacks on critical U.S. military systems, 
would result in a U.S. response that would impose costs that far 
outweigh the benefits they hope to achieve. Attempts to degrade our 
ability to detect or respond to nuclear attack would be particularly 
dangerous for them and not worth the associated risk.
    Mr. Rogers. Should any decisions be made by the services or 
components that would deprive the President of decision time when it 
comes to nuclear attacks and nuclear responses?
    Mr. McKeon. In general, the Department of Defense (DOD) supports 
maximizing the President's decision time in crises, and providing the 
President with as much information as possible to inform his decisions. 
DOD continues to take steps to ensure that our Nuclear Command, 
Control, and Communications capabilities meet national requirements, 
and the Military Departments play a vital role in that process.
    Mr. Rogers. Is nuclear deterrence the highest priority of the 
Department of Defense? Does the Obama Administration believe 7% of our 
defense budget for a decade or so is a price worth paying for 
modernizing our nuclear deterrent? If top-line budget relief is not 
provided, does the administration believe it should: (1) make cuts 
within the nuclear portfolio; (2) make cuts in the conventional 
portfolio to keep the nuclear portfolio whole?
    Mr. McKeon. Nuclear deterrence is the highest priority of the 
Department and we are committed to ensuring a safe, secure, and 
effective arsenal. This requires adequate and consistent funding of 
modernization programs that cannot be delayed further without putting 
the safety, security, and effectiveness of our nuclear forces at 
significant and unacceptable risk.
    Although multi-decade cost estimates are of questionable utility, 
we expect the total cost of modernization to be in the $350 billion to 
$450 billion range. Peak projected funding occurs in the 2026-2035 
timeframe, with a maximum of $26 billion in Fiscal Year (FY) 2030. The 
projected average cost is $19 billion per year from FY 2017 through FY 
2036. The peak fraction of the defense budget will depend on the size 
of the overall budget at that time, and is currently not known. We can 
say, however, that $19 billion to $26 billion corresponds to 3.3-4.5 
percent of the President's FY 2017 budget request. In addition to 
modernization costs, sustainment and operation of existing nuclear 
forces and Nuclear Command, Control, & Communications currently 
accounts for about two percent of the DOD budget.
    The Administration's nuclear sustainment and modernization plan is 
necessary, and it is affordable, if prioritized appropriately by the 
Department of Defense, Congress, and the Nation.
    Mr. Rogers. Please explain to us why the Administration is pursing 
the new air launched cruise missile, the LRSO? Is the Administration's 
commitment to this capability iron-clad? Does the Administration 
believe LRSO is destabilizing?
    Mr. McKeon. The Administration's decision to develop a Long-Range 
Standoff (LRSO) cruise missile to replace the aging Air-Launched Cruise 
Missile (ALCM) is essential to maintain the ALCM's unique contribution 
to stable and effective deterrence. The current system is already 
decades beyond its planned service life, and its viability will be 
challenged over the next decade by advanced air defenses.
    Cruise missiles provide capabilities that complement rather than 
duplicate that of a stealth bomber. Standoff capability extends the 
effective range of our bomber fleet and complicates the air defense 
problem facing any country seeking to negate the air component of our 
deterrent. As air defense capabilities continue to improve and 
proliferate, we cannot assume our technological lead will forever 
ensure unchallenged U.S. bomber operations over any target in any 
theater.
    The ALCM provides an important contribution to the range of 
credible options available to the President for responding to nuclear 
attack. And because aircraft can be visibly deployed and flown during a 
crisis, they provide a forceful reminder to an adversary contemplating 
aggression that the risk it faces is real. The ability to respond 
proportionately to a limited nuclear attack strengthens our ability to 
deter such attacks from ever taking place. This is critical in a world 
where we must not only avoid unintended escalation, but also deter 
deliberate nuclear escalation like that envisioned in Russia's current 
strategy.
    The LRSO will contribute to strategic stability by retaining a 
response option that does not pose the threat of a disarming surprise 
attack against Russia or China. The process of alerting strategic 
bombers is observable, and the aircraft and the missile must spend 
hours flying towards their targets. Thus, ALCMs provide more potential 
for warning than do either ballistic missiles or ground- and sea-
launched cruise missiles forward-deployed in theater or aboard ships on 
station.
    Mr. Rogers. What is the goal of U.S. nuclear forces? Do we merely 
wish to ``deter'' nuclear weapons use against the U.S. and its allies? 
Do we also plan to ``defeat'' a nuclear-armed adversary if deterrence 
fails?
    Admiral Haney. U.S. nuclear forces contribute to our national 
security interests in peacetime, crisis, and conflict by deterring 
potential adversaries and assuring allies around the world. They are an 
indispensable component in preserving strategic stability.
    The President's 2010 Nuclear Posture Review (NPR) states that the 
fundamental role of U.S. nuclear weapons, which will continue as long 
as nuclear weapons exists, is to deter nuclear attack on the U.S., our 
allies, and partners--recognizing that there remains a narrow range of 
contingencies in which U.S. nuclear weapons may still play a role in 
deterring a conventional or chemical-biological weapon attack against 
the U.S. or its allies and partners. The NPR also lists five key 
objectives that frame U.S. nuclear weapons policies and postures. 
Specifically, preventing nuclear proliferation and nuclear terrorism; 
reducing the role of U.S. nuclear weapons in U.S. national security 
strategy; maintaining strategic deterrence and stability at reduced 
nuclear force levels; strengthening regional deterrence and reassuring 
U.S. allies and partners; and sustaining a safe, secure, and effective 
nuclear arsenal. While the NPR provides the framework and guiding 
principles of U.S. nuclear forces, there is prudence in further 
articulating the role of these capabilities.
    The 2013 Report on the Nuclear Employment Strategy of the United 
States notes another key objective of U.S. nuclear weapons policies and 
posture, namely, to contribute to the President's options for achieving 
U.S. and allied objectives if deterrence fails.
    As stated in 2014 Quadrennial Defense Review, our nuclear forces 
contribute to deterring aggression against U.S. and allied interest in 
multiple regions, assuring U.S. allies that our extended deterrence 
guarantees are credible, and demonstrating that we can defeat or 
counter aggression if deterrence fails. This includes the security and 
vital interests of our allies and partners in the North Atlantic Treaty 
Organization, Asia, and the Pacific. U.S nuclear forces also help 
convince potential adversaries that they cannot successfully escalate 
their way out of failed conventional aggression against the United 
States or our allies and partners.
    Further, our extended deterrent reduces the likelihood of nuclear 
proliferation. Beyond the implications this has for the Nuclear Non-
proliferation Treaty, the ability of the U.S. to dissuade acquisition 
by others minimizes strategic risk. More to the point, the nuclear and 
conventional dialogue as well as cooperation we enjoy with our allies 
present a more cohesive and ardent challenge to potential adversaries. 
Invariably, the U.S. extended deterrence policy guarantees the safety 
and security of our allies under the any scenario when their very 
existence and way of life may be threatened.
    Ultimately, deterrence is about conducting integrated and combined 
operations and activities. It requires a comprehensive understanding of 
the strategic environment from an adversary's point of view. It's about 
communicating capability and intent. Whether we are deterring 
aggression in space, cyberspace, or nuclear--our actions and 
capabilities must convince any adversary that they cannot escalate 
their way out of a failed conflict--and that restraint is always the 
better option. Our adversaries must appreciate that the U.S. is not 
limited to a single domain or axis and that we are capable of 
responding in a time, place and domain of our choosing.
    Mr. Rogers. Why has the President consistently supported the ICBM 
leg of the triad? Why does it continue to be relevant? Why is keeping 
the Milestone A decision on schedule important to you? What are your 
views on ``commonality'' in the development of the Minuteman III 
replacement, the Ground-Based Strategic Deterrent (GBSD)?
    Admiral Haney. The Administration's nuclear posture and defense 
reviews affirmed previous findings that a nuclear Triad delivers the 
best mix of unique and complimentary capabilities to accomplish our 
national strategy and policy objectives of deterring adversaries and 
assuring allies. The Intercontinental Ballistic Missile (ICBM) force 
continues to provide the most responsive capability that maximizes 
decision space. ICBMs also provide a highly reliable and cost effective 
deterrent capability as part of a credible Triad. Any attempt to defeat 
the geographically dispersed ICBM force would require an adversary to 
execute a complex strategic attack. This `high cost to attack' 
reinforces stability by reducing the incentive for an adversary to 
execute such a strategy.
    Maintaining the development and deployment schedule for Ground-
Based Strategic Deterrent (GBSD) is essential; it is a `just-in-time' 
program to replace the aged Minuteman III ICBM force. Any program delay 
would risk introducing strategic capability gaps if GBSD is not 
deployed in sufficient time to gain confidence in the weapon system 
prior to Minuteman III retirement.
    Commonality between Air Force and Navy ballistic missile programs 
may offer benefits in terms of decreased development and procurement 
costs and reduced schedule risk as we modernize both forces. Technical 
risk associated with common components and subsystems can be 
effectively managed through wise procurement strategies and robust 
testing and surveillance programs.
    Mr. Rogers. Should any decisions be made by the services or 
components that would deprive the President of decision time when it 
comes to nuclear attacks and nuclear responses?
    Admiral Haney. To maximize Presidential decision space, the United 
States must sustain and modernize its nuclear deterrence capability. 
This involves more than just the platforms that make up the nuclear 
TRIAD, it also requires an appropriate intelligence and sensing 
apparatus to provide indication and warning of incoming threats; 
assured National and Nuclear Command, Control and Communications; a 
credible missile defense system that defends against limited attacks; 
and a resilient space and cyberspace architecture.
    The President's budget for 2017 supports this needed sustainment 
and modernization. USSTRATCOM continues to work closely with the 
Services and Office of the Secretary of Defense leadership to ensure 
the effectiveness of our strategic deterrent capabilities to facilitate 
current and future strategic capability and maximize Presidential 
decision space.
    Mr. Rogers. Should we view the ITWAA and NC3 capabilities as legs 
of the TRIAD? Have we been paying enough attention to ITWAA and its 
enablers? Are you comfortable with the plan to evolve these 
capabilities--and that we'll all stick with it--to ensure a survivable 
capability?
    Admiral Haney. Our nuclear deterrent is foundational to America's 
defense; it is a synthesis of dedicated sensors, assured command and 
control, a triad of delivery systems, nuclear weapons, enabling 
infrastructure, trained and ready people, and treaties and 
nonproliferation activities. All remain essential to our national 
security and continue to provide a stabilizing force in the global 
geopolitical fabric of the world. Each provides unique and 
complementary attributes that together underpin strategic deterrence 
and stability.
    Integrated Tactical Warning and Attack Assessment (ITW/AA) and 
Nuclear Command, Control and Communications (NC3) are critical aspects 
of our comprehensive efforts to achieve deterrence and assurance. Our 
ITW/AA capabilities provide indications and assessments supporting 
escalation control options and attack attribution. NC3 assets support 
our national-decision making process across a spectrum of scenarios, 
and provide the President and his key advisors the right information to 
expand decision space.
    ITW/AA and NC3 capabilities must be survivable and endurable. They 
provide the `connective tissue' of a credible and effective Triad and 
facilitate comprehensive deterrence, assurance, and escalation control. 
I am encouraged by the Defense Department's renewed focus on ITW/AA and 
eagerly anticipate tangible NC3 capability modernization results.
    The FY17 President's Budget adequately addresses our ITW/AA and NC3 
needs. However, while we have made significant investment gains in 
these capabilities, we must remain vigilant to safeguard funding 
identified for recapitalization efforts to ensure capabilities 
effectively address emerging threats across the conflict spectrum and 
meet mission requirements, from the President to the warfighter.
    Mr. Rogers. What is the military requirement for extended 
deterrence in Europe? Why is the life extension of the B61 gravity bomb 
important to Europe's security?
    Admiral Haney. The three legs of the U.S. Nuclear Triad, nuclear 
command, control, and communications system (NC3), supporting 
infrastructure, space and early warning sensors, cyberspace, and 
ballistic missile defenses are critical components of our strategic 
deterrent forces that provide unique and complimentary capabilities 
that deter our adversaries and assure allies and partners. As such, the 
U.S. remains committed to supporting an appropriate mix of 
conventional, nuclear and missile defense capabilities to meet NATO 
deterrence and extended deterrence objectives in Europe. Legacy B61-3/4 
weapons are the only U.S. nuclear weapons deployed OCONUS to meet the 
nuclear portion of our NATO commitment. This is increasingly important 
to security in Europe as Russia continues to modernize its nuclear 
forces and make overt threats to NATO countries. These weapons are well 
beyond their intended service life, and the B61-12 Life Extension 
Program (LEP) will replace them with a single, modern variant to 
sustain our commitment to NATO. In addition to meeting NATO commitments 
the B61-12 is being designed to meet USSTRATCOM requirements and 
extended deterrent/assurance commitments to allies worldwide including 
the Asia-Pacific region.
    In the next decade, B61-12 will be the sole nuclear gravity bomb in 
the U.S. stockpile. Gravity weapons offer the most diverse and flexible 
options to meet both OPLAN requirements and regional scenarios. The 
B61-12 LEP is an essential element of our stockpile sustainment and 
modernization strategy and supports our nuclear non-proliferation 
goals, by ensuring continued support to allies and negating their need 
to develop their own nuclear programs. Ultimately, the B61-12 will be 
fielded on legacy (B-2) and future bombers (B-21--Long Range Strike-
Bomber) and dual capable aircraft (DCA). This program demonstrates a 
strong U.S. commitment to modernize and deploy a capable deterrent/
assurance force while directly supporting U.S. non-proliferation goals.
    Mr. Rogers. What is the way ahead for the JSPOC (Joint Space 
Operations Center) and the JICSPOC (Joint Interagency Combined Space 
Operations Center)? Does it make sense to be maintain two facilities?
    Admiral Haney. The Joint Space Operations Center (JSpOC) at 
Vandenberg Air Force Base (AFB), is charged with conducting day-to-day 
operations, to include supporting coalition forces in theater. The 
Joint Interagency Combined Space Operations Center (JICSpOC) at 
Schriever AFB will provide an operational experimentation and test 
environment to develop the tools, relationships, processes and 
procedures that will be effective in a contested space environment. We 
are in the process of reviewing the JICSpOC concept while also working 
to improve JSpOC functionality in the areas of Space Situational 
Awareness for both commercial and Allied nation systems, and global 
theater support.
    Mr. Rogers. As you know, the Air Force is completing its analyses 
of alternatives for the OPIR and AEHF systems. What are the risks of 
``disaggregation'' of these capabilities?
    Admiral Haney. Space capabilities are a vital component of 
comprehensive deterrence and assurance and are critical to supporting 
our deployed forces and our national decision-making processes. 
However, space has become an increasingly contested, degraded, and 
operationally limited domain. As the threat to our space capabilities 
continues to rise, so too must the resiliency of our space assets.
    Disaggregation is an effort to improve our resiliency in space, and 
is one of several factors being considered in the development of future 
Overhead Persistent Infrared (OPIR) and protected Satellite 
Communications (SATCOM) architectures. The Defense Department continues 
to assess the benefits and risks associated with different 
architectures. USSTRATCOM, among other stakeholder organizations, is 
engaged with Air Force Space Command to carefully examine cost, 
schedule, performance, protection, resilience, and user segment 
synchronization and transition risk to inform future investment and 
strategy decisions. We are confident the potential risks and benefits 
of disaggregation will be fully explored and accounted for in this 
process.
    Mr. Rogers. What is your professional military opinion as to why 
the United States needs LRSO? Can we use JASSM-ER for a nuclear stand-
off capability and simply cancel LRSO? Why or why not?
    Admiral Haney. The U.S. needs the Long Range Stand-off (LRSO) 
cruise missile's range and ability to penetrate air defenses to provide 
the necessary global target coverage that denies adversaries any 
geographic sanctuary for high value targets. Maintaining a credible 
stand-off capability is an essential element of both effective 
strategic deterrence and extended deterrence to NATO and our Asia-
Pacific allies. Sustaining this stand-off capability is especially 
important as adversaries continue to seek anti-access/area denial 
(A2AD) advantages that limit U.S. operational effectiveness.
    Cancelling the LRSO and using the Joint Air-to-Surface Standoff 
Missile, Extended Range (JASSM-ER) for a nuclear stand-off capability 
will not work. JASSM-ER's range is not sufficient to hold adversary 
targets at risk, and JASSM-ER was never designed to accommodate a 
nuclear warhead. Re-designing JASSM-ER to increase its range and 
certify it for nuclear use would require resources and time in excess 
of those projected for the current LRSO program.
    The LRSO cruise missile is needed to replace the aging Air Launched 
Cruise Missile (ALCM), whose viability will be challenged by advanced 
air and missile defenses. ALCM is decades past its planned service 
life, and facing reliability challenges. The LRSO is needed to support 
the bomber force well into the future.
    Mr. Rogers. What is your professional military opinion as to why 
the United States needs GBSD? If we simply life extended Minuteman III, 
would it be capable of meeting your nuclear deterrence requirements? 
Why or why not?
    Admiral Haney. Our nuclear Triad consists of Intercontinental 
Ballistic Missiles (ICBMs), Ballistic Missile Submarines, Air-Launched 
Cruise Missiles, and nuclear capable heavy bombers and associated 
tankers. Each leg of the Triad provides unique and complementary 
attributes that together underpin strategic deterrence and stability. 
The Triad provides a hedge against technical problems or changes in the 
security environment and must consist of independently viable weapons 
systems and platforms which present adversaries with a complex, multi-
pronged problem.
    Our ICBM force provides a responsive, highly reliable and cost 
effective deterrent capability. The Ground Based Strategic Deterrent 
(GBSD) is an essential investment to ensure the U.S. maintains an 
effective land-based strategic ballistic missile capability as part of 
a credible nuclear Triad. While we have successfully extended Minuteman 
III several times, continued life extensions will not maintain weapon 
system effectiveness. This option was assessed as more costly than 
developing and fielding GBSD. The U.S. will encounter a strategic 
capability gap if GBSD is not fielded prior to the age-out and 
retirement of the Minuteman III ICBM.
    Mr. Rogers. What is the minimum number of Ohio-class replacement 
submarines that are required to fulfill STRATCOM's requirements for 
sea-based deterrence? Please be specific and explain why having only 10 
replacement submarines is insufficient.
    Admiral Haney. Our nuclear Triad consists of Intercontinental 
Ballistic Missiles, Ballistic Missile Submarines, Air-Launched Cruise 
Missiles, and nuclear capable heavy bombers and associated tankers. 
Each leg of the Triad provides unique and complementary attributes that 
together underpin strategic deterrence and stability. The Triad 
provides a hedge against technical problems or changes in the security 
environment and must consist of independently viable weapons systems 
and platforms which present adversaries with a complex, multi-pronged 
problem.
    The Ohio-class SSBN fleet is undergoing significant sustainment 
efforts to maintain our nation's required high operational availability 
and extend the life of the D5 ballistic missile. Twelve Ohio-class 
Replacement Program (ORP) submarines is the minimum number required to 
meet USSTRATCOM's sea-based deterrent requirements. The program of 
record determined this number through detailed analysis of operational 
requirements, patrol and maintenance cycles, and current/postulated 
threats. Fielding fewer than 12 ORP submarines would introduce 
unacceptable strategic capability risk in our most survivable leg of 
the Triad.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COOPER
    Mr. Cooper. How do we ensure that we effectively deter Russia and 
other adversaries without increasing risks of undermining strategic 
stability, increase the risks of miscalculation or causing a nuclear 
arms race?
    Mr. McKeon. We seek to maintain a nuclear deterrent that is robust 
and stable, rather than one that is necessarily reactive to every 
action of potential adversaries. This remains best served by sustaining 
the nuclear Triad and Dual-Capable Aircraft (DCA) with a diverse range 
of nuclear explosive yields and delivery modes. The Triad and DCA 
provide the flexibility, responsiveness, and survivability we need to 
meet and adapt to the challenges of a dynamic 21st century security 
environment, including those posed by Russia, without the need to 
mirror every potential adversary, system-for-system and yield-for-
yield. Thus, the Administration's plan focuses on sustaining and 
modernizing current platforms, delivery systems, and warheads to 
preserve existing military capabilities in the face of evolving 
threats, rather than developing new nuclear warheads with new military 
capabilities. In addition to positioning us to address deterrence 
threats as they emerge, this approach bolsters strategic stability by 
decreasing incentives for a future arms race without seeking the 
ability to negate Russia's strategic deterrent capabilities.
    Mr. Cooper. What is DOD's plan to stop reliance on the RD-180 
engine and ensure reliable access to space within the next few years?
    Admiral Haney. Space capabilities are a vital component of 
comprehensive deterrence and assurance and are critical to supporting 
our deployed forces and our national decision-making processes. 
However, space has become an increasingly contested, degraded, and 
operationally limited domain. As the threat to our space capabilities 
continues to rise, so too must the resiliency of our space assets. 
Improved launch capabilities will help assure the resiliency of our 
space-based capabilities.
    USSTRATCOM requires effects from the space domain to execute its 
assigned responsibilities. Critical Space capabilities include 
communications; Intelligence, Surveillance and Reconnaissance (ISR); 
missile warning; and Positioning Navigation Timing. We rely heavily 
upon Air Force Space Command (AFSPC) to deploy these critical systems 
and are closely coordinating with AFSPC to study options to field 
reliable and robust domestic launch capabilities.
    Mr. Cooper. How do we ensure that we effectively deter Russia and 
other adversaries without increasing risks of undermining strategic 
stability, increase the risks of miscalculation or causing a nuclear 
arms race?
    Admiral Haney. Ensuring a robust deterrent without undermining 
stability, increasing the risk of miscalculation or causing an arms 
race was, during the Cold War, a continuously monitored and 
aggressively studied balancing problem. Post-Cold War, less attention 
was placed on this problem. Today, we must again more diligently 
monitor and assess strategic stability.
    The basic tenets of strategic stability remain the same. First, 
stable strategic deterrence is underpinned by force structure and 
posture that ensure neither the United States nor or Russia could gain 
significant advantage by attempting a disarming first strike on the 
other's nuclear forces.
    Arms control treaties are a second key aspect of managing strategic 
stability. They provide increased transparency into each nation's 
activities and provide an upper limit on capabilities. The transparency 
provided by the New START Treaty has (to date) been adhered to 
regarding strategic nuclear weapons between the United States and 
Russia.
    Third, interactions with Russia across all elements of the U.S. 
government are key to ensuring actions taken by both sides do not 
inadvertently trigger destabilizing activities. While these discussions 
and exchanges are not a panacea, they are a key component to avoiding 
misperceptions.
    Fourth, we must have a comprehensive understanding and perception 
of the strategic environment from an adversary's point of view. This 
requires a robust foundational intelligence capability.
    Fifth, we must work diligently to ensure our whole of government 
activities are internally consistent with our objectives. Words and 
actions must be unambiguously coherent regarding the National Security 
Interests of the United States. This is much easier said than done. 
Thus, there is a need for increased diligence across the U.S. 
government in this regard.
    Finally, we must continue to pursue the modernization of the force 
in a manner that is consistent with replacing and maintaining the 
necessary capability, while avoiding the perception of increasing the 
scale or scope of these capabilities. This must be appropriately 
balanced given the modernization and development of nuclear weapon 
capabilities by other nation states that in some cases are expanding 
their capabilities. Again, increased diligence is necessary to ensure 
strategic stability is preserved. We must continue to provide a safe, 
secure, effective and ready nuclear deterrent as a top priority that 
includes:
    <bullet>  An appropriate intelligence and sensing apparatus to give 
indications and warnings of incoming threats
    <bullet>  Assured National and Nuclear Command, Control and 
Communications
    <bullet>  A visible TRIAD of platforms including Intercontinental 
Ballistic Missiles, Submarine Launched Ballistic Missiles, and Bombers 
with associated systems that includes an Air Launched Cruise Missile. 
Refueling tankers are also needed to support the Bomber leg of the 
TRIAD
    <bullet>  A credible Missile Defense system that defends against 
limited attacks
    <bullet>  A resilient Space and Cyberspace architecture
    <bullet>  A robust conventional force.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. TAKAI
    Mr. Takai. How has STRATCOM/JFCC Space reoriented operations to 
support PACOM?
    Mr. McKeon. The Joint Space Operations Center (JSpOC) provides 
space-based capabilities in support of U.S. Pacific Command (USPACOM) 
operations. These capabilities include day-to-day missile warning; 
satellite communications; positioning, navigation, and timing; and 
nuclear detonation detection capabilities. JSpOC also provides 
Offensive Space Control (OSC) effects, which influence USPACOM planning 
for future contingencies.
    The Joint Functional Component Command Space (JFCC Space) supports 
USPACOM through its Non-Kinetic Duty Officer (NKDO). The NKDO offers 
options for space protection capabilities in the event of an emergent 
counter-space event in USPACOM's Area of Responsibility. This 
connection, which is essential to a strong relationship with USPACOM, 
supports theater operations and protects existing space capabilities.
    Mr. Takai. Admiral Haney--What is your assessment of the risk to 
space services that are so vital to our Joint Force? Is risk 
increasing? How is Strategic Command evolving from operating in space 
in a peaceful environment, to one which is contested by potential 
adversaries?
    Admiral Haney. Space is no longer a sanctuary from conflict, and 
our space forces must be able to contend with both natural and man-made 
hazards. The risks increase as other nations field and improve 
capabilities designed to counter the U.S. space advantage.
    Recognizing that most organizations share the same risks of 
operating in the space domain, we are working to meet the challenges 
through improved partnerships with international and commercial 
agencies and throughout our Intelligence Community. We are also making 
meaningful space investments to defend ourselves and assure space 
operations throughout all levels of conflict.
    We are investing in efforts to improve stability, resiliency, and 
assurance of our space operations. This includes updated Battlefield 
Management Command and Control (BMC2) systems, integration of 
Department of Defense and Intelligence Community space capabilities and 
operations, and building up responsive measures to defend space-enabled 
capabilities.
    Existing and expanding potential adversary capabilities are 
included in our exercises and learning processes.
    We have a deliberate approach as Commander, United States Strategic 
Command, participates in DOD Defense Space Councils and Deputy's 
Management Action Groups, and also is a co-chair with Ms. Betty Sapp, 
Director National Reconnaissance Office, of the Joint Space Doctrine 
and Tactics Forum (JSDTF). The JSDTF's goals are to ensure U.S. space 
policy, doctrine, operational concepts, strategies and planning 
scenarios reflect that space is a contested domain, populated by 
dynamic actors. Through the JSDTF, we have already made significant 
improvements in the integration of exercises and wargames, and are 
revising associated joint doctrine, as well as new tactics, techniques 
and procedures for our space operators. The JSDTF will foster the 
transformation of how the U.S. operates in space by promoting seamless 
functionality between the DOD and Intelligence Community.
    Another key initiative is the establishment of the Joint 
Interagency Combined Space Operations Center (JICSpOC) located at 
Schriever Air Force Base in Colorado. This center combines the efforts 
of USSTRATCOM, Air Force Space Command, and the Intelligence Community 
with a goal to create unity of effort and facilitate information 
sharing across the national security space enterprise. The JICSpOC will 
ensure the space enterprise meets and outpaces emerging and advanced 
space threats and will provide vital information for national 
leadership, allies, partners and the Joint Force. It will also serve to 
enhance the Nation's deterrent posture by demonstrating the United 
States is prepared when our space capabilities are threatened.
    Mr. Takai. Admiral Haney--As you know, the current U.S. Space 
Surveillance Network optical sensors can only operate at night. 24/7 
monitoring is essential to monitor and defend vital space-based assets. 
I'm aware of certain proven prototype optical systems capable of 
daytime and night operations. What are your plans to make that an 
operational capability?
    Admiral Haney. Space capabilities are a vital component of 
comprehensive deterrence and assurance and are critical to supporting 
our deployed forces and our national decision-making processes. 
However, space has become an increasingly contested, degraded, and 
operationally limited domain. Our ability to monitor the space 
environment is increasingly vital given recent advancements in 
adversary counter-space capabilities. The proof-of-concept work on 
daylight optical systems is encouraging and points to a potential role 
for these sensors as a part of our Space Surveillance Network (SSN). We 
continue to investigate the utility, limitations and cost benefit of 
this technology to improve our space surveillance capability within 
resource constraints.
    Mr. Takai. How has STRATCOM/JFCC Space reoriented operations to 
support PACOM?
    Admiral Haney. Space capabilities are a vital component of 
comprehensive deterrence and assurance and are critical to supporting 
our deployed forces and our national decision-making processes. Our 
national space capabilities allow us to globally navigate, communicate, 
and observe events in areas where non-space sensors are not feasible.
    USSTRATCOM Joint Functional Component Command Space (JFCC SPACE), 
through the Joint Space Operations Center (JSpOC), provides space-based 
capabilities in support of United States Pacific Command (PACOM) 
operations in the following ways:
    <bullet>  Day-to-day environmental monitoring
    <bullet>  Satellite Communications (SATCOM)
    <bullet>  Positioning, Navigation and Timing capabilities
    <bullet>  Theater Missile Warning Battlespace Awareness
    <bullet>  and Combat Search and Rescue support
    In addition to meeting Department of Defense mission sets, JFCC 
SPACE provides oversight of the commercial SATCOM systems utilized in 
PACOM through the Commercial Integration Cell. JFCC SPACE supports 
allied countries and commercial entities in PACOM through Space 
Situational Sharing Agreements with USSTRATCOM. These countries include 
Japan, the Republic of Korea and Australia. Our Pacific Allies rely on 
JFCC SPACE to provide navigation accuracy through GPS constellation 
management. USSTRATCOM's Purposeful Interference Response Team, 
liaisons with JFCC SPACE in ensuring the health and protection of the 
constellation.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GARAMENDI
    Mr. Garamendi. Can you share with the committee the planning 
(including the estimated development and production timelines and 
decision points) and cost estimates for nuclear modernization, 
including for nuclear modernization beyond 2025? When does the funding 
bow-wave occur?
    Mr. McKeon. The graphic below shows the projected costs and 
associated timelines for DOD nuclear modernization.<dagger> Peak 
projected funding occurs in the 2026-2035 timeframe. The total 
projected cost from Fiscal Year (FY) 2017 through FY 2036 is $381 
billion, for an average of $19 billion per year. It should be noted 
that the Long-Range Strike Bomber will have both nuclear and 
conventional strike capabilities.
---------------------------------------------------------------------------
    <dagger> The original graphic submitted is retained in subcommittee 
files.
---------------------------------------------------------------------------
                  Nuclear Enterprise Recapitalization





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    .epsThe following key development and production dates fall within 
this time period:
    <bullet>  W76-1 Life Extension Program: FY 2019 Production 
complete;
    <bullet>  B61-12 Life Extension Program: FY 2020 First Production 
unit (FPU);
    <bullet>  W88 ALT 370: FY 2020 FPU;
    <bullet>  F-35A Dual Capable Aircraft: FY 2025 Nuclear Operational 
Certification Complete;
    <bullet>  W80-4 warhead: FY 2025 FPU;
    <bullet>  Long-Range Standoff weapon (LRSO): FY 2026 FPU;
    <bullet>  B21 bomber: Mid-2020s initial capability;
    <bullet>  Ground-Based Strategic Deterrent (GBSD): FY 2029 Initial 
Operational Capability (IOC);
    <bullet>  Interoperable Warhead 1 (IW1): FY 2030 planned FPU;
    <bullet>  OHIO Replacement: FY 2031 First Patrol; and
    <bullet>  IW2: FY2034 planned FPU.
    Mr. Garamendi. How is the DOD addressing concerns that the Long-
Range Stand-Off weapon may be destabilizing?
    Mr. McKeon. We appreciate the opportunities that congressional 
hearings provide to reiterate publicly the important role of the Long-
Range Standoff (LRSO) cruise missile in a nuclear modernization program 
designed to maintain strategic stability with Russia and China. The 
LRSO will sustain the deterrent capabilities currently provided by the 
Air-Launched Cruise Missile (ALCM), which has contributed to strategic 
stability for decades by providing a response option that does not pose 
the threat of a disarming surprise attack to Russia or China. The 
process of alerting strategic bombers is observable, and the aircraft 
and the missile must spend hours flying towards their targets. Thus, 
ALCMs provide more potential for warning than do either ballistic 
missiles or ground- and sea-launched cruise missiles forward-deployed 
in theater or aboard ships on station.
    The LRSO will help maintain strategic stability at the lowest 
possible number of nuclear weapons consistent with sustaining options 
for effective deterrence, and without developing new nuclear warheads.
    Mr. Garamendi. Can you share with the committee the planning 
(including the estimated development and production timelines and 
decision points) and cost estimates for nuclear modernization, 
including for nuclear modernization beyond 2025? When does the funding 
bow-wave occur?
    The Department of Defense, in cooperation with the National Nuclear 
Security Agency (NNSA), developed a long-term nuclear modernization and 
recapitalization plan that maintains a credible strategic deterrent 
force. The plan delivers required modern and reliable strategic and 
extended deterrence capabilities as legacy systems retire.
    Specifics of the plan, including cost estimates and schedule, are 
reported in the Defense Department's `Annual Report on the Plan for the 
Nuclear Weapons Stockpile, Nuclear Weapons Complex, Nuclear Weapons 
Delivery Systems, and Nuclear Weapons Command and Control System'.
    The nuclear modernization bow-wave starts in or about 2021 and will 
peak in the mid to late 2020s. Spending on the nuclear enterprise is 
predicted to rise to 5-6% of U.S. defense spending as specified in the 
Congressional Budget Office's ``Projected Costs of U.S. Nuclear Forces, 
2015 to 2024'' report. This level of investment is appropriate given 
the contribution of U.S. nuclear deterrence capabilities to our 
National security and global stability. If we assume historical 
averages, funding for the nuclear enterprise should return to 3-4% of 
the defense budget following this period of critical modernization.
    Mr. Garamendi. A recent article in the Daily Beast noted a STRATCOM 
requirement that the new ICBM must be more accurate. Please explain 
what the added accuracy and capability requirements are for the GBSD. 
Is the Air Force looking at using technology that the Navy has already 
developed?
    Admiral Haney. Our nuclear Triad consists of Intercontinental 
Ballistic Missiles (ICBMs), Ballistic Missile Submarines, Air-Launched 
Cruise Missiles, and nuclear capable heavy bombers and associated 
tankers. Each Triad leg provides unique and complementary attributes 
that together underpin strategic deterrence and stability. The Triad 
provides a hedge against technical problems or changes in the security 
environment and must consist of independently viable weapons systems 
and platforms which present adversaries with a complex, multi-pronged 
strategic problem. Our ICBM force provides the most responsive 
capability that maximizes Presidential decision time. The ICBM force 
also provides a highly reliable and cost effective deterrent capability 
as part of a credible Triad.
    USSTRATCOM fully supports the Air Force plan to develop and deploy 
a Minuteman III replacement, called the Ground-Based Strategic 
Deterrent (GBSD), which maintains strategic effectiveness beyond 2030. 
One component of maintaining ICBM effectiveness is ensuring the 
missile's accuracy across its full operational range. This can be 
affordably accomplished at low technical risk by utilizing existing, 
mature ballistic missile guidance components which improve performance 
over 1970s-era Minuteman technology.
    The GBSD program is exploring commonality opportunities at the 
system and subsystem levels to minimize non-recurring engineering cost, 
reduce lifecycle cost, and gain production efficiencies. Regarding 
accuracy, the Air Force and industry partners are currently examining 
existing U.S. Navy Trident II D5 ballistic missile guidance systems to 
leverage for the GBSD missile.
    Mr. Garamendi. What contracts does STRATCOM have with universities 
or think tanks to support nuclear deterrence thinking and policy? What 
entities are these contracts with and what are the value of these 
contracts?
    Admiral Haney. USSTRATCOM's University Affiliated Research Center 
(UARC) for Combating Weapons of Mass Destruction (CWMD) is a 5-year 
contract in partnership with the University of Nebraska. The purpose of 
a UARC is to focus a high-level, world-class research university on a 
specific, enduring, technically hard problem to create a continuity of 
research, focus and generate unconventional thoughts to solve critical 
problems, and help train the next generation of strategic thinkers.
    There are five task orders directly sponsored by USSTRATCOM/J5 
supporting nuclear deterrence thinking and policy and their assigned 
value is $500K: Behavioral Influence ($146K), Deterrence Strategic 
Stage Set ($115K), Risk of Extended Deterrence ($73K), Development/
Assessment of Narrative Counter-Narrative ($95K) and Horizontal and 
Vertical Nuclear Proliferation ($71K).
    Additionally, USSTRATCOM has formed a Deterrence and Assurance 
Academic Alliance. The Alliance is not a contracted entity but is a 
collaborative partnership with 22 regional and national universities. 
We have four objectives for the Alliance: develop the next generation 
of deterrence professionals, regularize our relationships with 
Academia, open a continuous and robust communication with Academia, and 
stimulate new thinking in deterrence and assurance studies. The 
Alliance is moving into its second year and continues to grow. We 
currently have eight student teams and advisors at local universities 
and three National Defense University STRATCOM Scholars conducting 
research on deterrence and assurance issues.
    Mr. Garamendi. Can you share with the committee the analysis that 
led to the specific number of 50-80 for the requirement for annual pit 
production? When does DOD require 50-80 pits per year? How many are 
needed to address geopolitical uncertainty and how many are to address 
technical uncertainty?
    Admiral Haney. An assessment of the Nuclear Weapon Pit Production 
Requirements Report to Congress1, dated January 16, 2014, confirmed the 
requirement for achieving 50-80 pits per year production capacity by 
2030. This requirement was developed from the following factors:
    1)  U.S. policy objectives to maintain a safe, secure and effective 
nuclear deterrent is contingent on the national capability to produce 
plutonium pits.
    2)  Pit aging studies conclude pits will not have unlimited 
lifetimes. Even with pit reuse, plutonium work may be required to 
assure weapon safety, security and long term reliability to preclude 
the need for weapon testing.
    3)  The ability to produce plutonium pits in sufficient quantity 
and timeliness to address technical issues is essential to the long 
term reduction of the non-deployed weapon stockpile. Future stockpile 
reductions are central to U.S. non-proliferation goals.
    1 P.L. 112-239; FY13 NDAA, Sec. 3147
    Mr. Garamendi. How is the DOD addressing concerns that the Long-
Range Stand-Off weapon may be destabilizing?
    Admiral Haney. Our nuclear Triad consists of Intercontinental 
Ballistic Missiles (ICBMs), Ballistic Missile Submarines, Air-Launched 
Cruise Missiles (ALCM), and nuclear capable heavy bombers and 
associated tankers. Each Triad leg provides unique and complementary 
attributes that together underpin strategic deterrence and stability. 
The Long Range Stand-off (LRSO) cruise missile is integral to the air-
leg of the Triad and provides the U.S. flexible and tailorable options 
in response to a wide range of strategic and regional crises. LRSO also 
presents the adversary a complex problem to defend against.
    The LRSO cruise missile is not a `new' nuclear weapon and, in the 
context of strategic deterrence, is not destabilizing. LRSO represents 
a modernization of an existing U.S. nuclear capability. Like the 
current ALCM, LRSO provides the President a variety of tailorable 
options to deter adversary nuclear use, including the ability to 
counter `escalate-to-deescalate' strategies. Maintaining a credible 
stand-off nuclear capability contributes to stability by assuring 
allies of U.S. deterrence commitments and discouraging them from 
pursuing their own nuclear capabilities.
    Mr. Garamendi. What can the Long-Range Stand-Off weapon (LRSOs) 
accomplish that the nuclear ballistic missile submarines and the land-
based missiles (ICBMs) cannot?
    Admiral Haney. This Administration's thorough review of the nuclear 
deterrent force affirmed previous findings that maintaining a credible 
and effective nuclear Triad, with its unique and complimentary 
deterrent attributes, represented the best approach to meeting our 
national security and global stability objectives. The Long Range 
Stand-off (LRSO) cruise missile is integral to the air-leg of the TRIAD 
and provides the President flexible and tailorable options in response 
to a wide range of strategic and regional crises.
    The LRSO's range and ability to penetrate air defenses provides the 
necessary global target coverage that denies adversaries any geographic 
sanctuary for high value targets. Unlike ballistic missiles, forward 
deployable LRSO cruise missiles are visible and clearly demonstrate 
U.S. resolve and commitment to allies and partners. Additionally, LRSO 
cruise missiles can be rapidly loaded and deployed in response to 
technical issues or operational vulnerabilities with other TRIAD 
systems.
    Mr. Garamendi. In a June 2014 letter on behalf of the Nuclear 
Weapons Council, Mr. Kendall noted that ``without the LRSO's advanced 
stand-off capability, the bomber leg of the Triad will gradually become 
a symbol if our decline rather than a bellweather of enduring American 
strength.'' If the air-leg of triad will become a symbol of our decline 
without the LRSO, what is the value of spending at least $10 billion on 
modernizing the B61 bomb?
    Admiral Haney. Long Range Stand-off (LRSO) combined with B-21 (Long 
Range Strike-Bomber) ensures effectiveness in anti-access/area denial 
environments and has the stand-off range to deny an adversary any 
geographic sanctuary. The combination of stand-off cruise missiles and 
gravity weapons offer the most diverse delivery options, providing the 
President flexible and tailorable options across a wide range of 
strategic and regional crises. Gravity weapons are the only U.S. 
nuclear weapons permanently deployed out of the continental U.S., and 
are essential to maintaining our commitment to the North Atlantic 
Treaty Organization (NATO).
    The B61-12 Life Extension Program (LEP) will provide a modern 
gravity nuclear weapon to ensure the B-2 bomber remains a viable U.S. 
nuclear platform for the foreseeable future. The B61-12 LEP will 
replace the aged B61-3/4/7/10 and B83-1 bombs with a single, modern 
reliable weapon resulting in 50% fewer deployed gravity weapons. This 
significant reduction in the U.S. gravity nuclear weapons stockpile 
directly supports non-proliferation goals while still maintaining a 
robust strategic & NATO deterrent capability.
    Mr. Garamendi. STRATCOM sets requirements for nuclear deterrent, 
but does not have responsibility to pay for the associated costs of 
modernizing these platforms. How does STRATCOM evaluate costs?
    Admiral Haney. The Administration's nuclear posture and defense 
reviews such as the 2010 Nuclear Posture Review, 2013 Report on Nuclear 
Weapons Employment Strategy, 2014 Quadrennial Defense Review, and the 
2015 National Military Strategy affirmed previous findings that a 
nuclear Triad delivers the best mix of unique and complimentary 
capabilities to accomplish our national strategy and policy objectives 
of deterring adversaries and assuring allies. USSTRATCOM works closely 
with the Services and other stakeholders to ensure the sustainment and 
modernization programs necessary to support our strategic deterrence 
and assurance missions are adequately resourced. These efforts are 
already paying off; joint efforts on fuze modernization are projected 
to save the Air Force approximately $600M. Similar efforts promise to 
continue to pay dividends both in the sustainment of existing and 
development of follow-on systems. USSTRATCOM also fully participates in 
the joint requirements validation process, which is cost informed and 
in Service requirements trade-space deliberations.
    The cost to sustain a viable nuclear deterrent is not trivial, but 
it is important to keep these costs in perspective. Today we spend 
approximately 3% of the Defense Department's budget in support of the 
nuclear enterprise. Investments in the nuclear enterprise are projected 
to rise to 5-6% of defense spending in the next 10 years as specified 
in the Congressional Budget Office's ``Projected Costs of U.S. Nuclear 
Forces, 2015 to 2024'' report. This investment is appropriate given the 
contribution of our nuclear forces to our National security and global 
stability. If we assume historical averages, funding for the nuclear 
enterprise should return to 3-4% of defense spending following this 
period of critical modernization.
    Mr. Garamendi. Will the LRSO be more accurate and re-targetable in 
flight?
    Admiral Haney. Yes, the Long Range Stand-off (LRSO) will be more 
accurate due to advances in current missile guidance technology than 
the current Air Launched Cruise Missile which utilizes 1970s 
technology. There is no requirement to make LRSO re-targetable in 
flight.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY DR. FLEMING
    Dr. Fleming. Could you comment on the Weapons Storage Facility 
recapitalization program, in terms of your assessment of the timeline 
and the importance of the program's plan to restore the Weapons Storage 
Facility at Barksdale Air Force Base to enable storage and training 
with weapons at both B-52 operating locations, and could you commit to 
keep me and this committee updated on this project?
    Admiral Haney. Weapons storage area (WSA) modernization is 
important to ensuring the Nation's nuclear deterrence capability 
remains safe, secure, and effective in the decades ahead. The Air Force 
has a deliberate and comprehensive plan--the Weapons Storage Facility 
(WSF) Investment Strategy--that will replace existing WSAs with modern 
WSFs. In the FY17 PB Future Years Defense Program, the Air Force 
investment includes a WSF at Barksdale Air Force Base beginning in 
FY18. USSTRATCOM working in partnership with the Air Force, will keep 
the Committee informed on this project.
    Dr. Fleming. Could you explain why it is important to buy a new 
long-range standoff weapon (LRSO) given the capabilities available with 
the Long Range Strike Bomber (LRS-B)? Also, given the importance of the 
LRSO, it was interesting to see that the NNSA and the Air Force's 
Fiscal Year 17 requests for this program were lower than expected--does 
this request allow for this capability to be produced and deployed as 
scheduled?
    Admiral Haney. The B-21 Long-Range Strike Bomber and Long Range 
Stand-off (LRSO) cruise missile are essential to meet our nation's 
strategic deterrence and assurance requirements. Both are integral to 
the Triad by providing the President flexible and tailorable options in 
response to a wide range of strategic and regional crises. The B-21 and 
LRSO's range and ability to penetrate air defenses provides the 
necessary global target coverage that denies adversaries any geographic 
sanctuary for high value targets. Maintaining a credible penetrating 
and stand-off nuclear capability contributes to stability by assuring 
allies of U.S. deterrence commitments and discouraging them from 
pursuing their own nuclear capabilities.
    Delays in FY16 contract awards reduced the amounts required in 
FY17. NNSA reduced their PB17 to maintain warhead development 
synchronization with the Air Force's missile program. The Air Force and 
NNSA PB17 requests still allow for production and deployment as 
scheduled to meet USSTRATCOM's deterrence mission requirements.

                                  [all]
</pre></body></html>
